<html>
<title> - HOMELAND SECURITY: THE BALANCE BETWEEN CRISIS AND CONSEQUENCE MANAGEMENT THROUGH TRAINING AND ASSISTANCE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



     HOMELAND SECURITY: THE BALANCE BETWEEN CRISIS AND CONSEQUENCE 
               MANAGEMENT THROUGH TRAINING AND ASSISTANCE

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                  H.R. 2512, H.R. 3266, and H.R. 3158

                               __________

                           NOVEMBER 20, 2003

                               __________

                             Serial No. 65

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

90-547              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

TOM FEENEY, Florida                  ROBERT C. SCOTT, Virginia
BOB GOODLATTE, Virginia              ADAM B. SCHIFF, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
MARK GREEN, Wisconsin                MAXINE WATERS, California
RIC KELLER, Florida                  MARTIN T. MEEHAN, Massachusetts
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia

                      Jay Apperson, Chief Counsel

                        Elizabeth Sokul, Counsel

                          Katy Crooks, Counsel

                Patricia DeMarco, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           NOVEMBER 20, 2003

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress From the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress From 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     3
The Honorable Anthony D. Weiner, a Representative in Congress 
  From the State of New York.....................................     4
The Honorable John E. Sweeney, a Representative in Congress From 
  the State of New York..........................................     5

                               WITNESSES

The Honorable C. Suzanne Mencer, Director, Office for Domestic 
  Preparedness, U.S. Department of Homeland Security
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9
The Honorable Raymond W. Kelly, Police Commissioner, City of New 
  York
  Oral Testimony.................................................    12
  Prepared Statement.............................................    13
Mr. William H. Bishop, Director, Bureau of Homeland Security, 
  State of Idaho
  Oral Testimony.................................................    21
  Prepared Statement.............................................    22

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas.............    44
Prepared Statement of the Honorable Adam B. Schiff, a 
  Representative in Congress From the State of California........    54
Prepared Report of Dr. Joseph P. Indusi of Brookhaven National 
  Laboratory.....................................................    55
Questions and Responses for the Record from Ms. Suzanne Mencer...    57
Questions and Responses for the Record from Mr. Raymond W. Kelly.    60
Questions and Responses for the Record from Mr. William Bishop...    64

 
     HOMELAND SECURITY: THE BALANCE BETWEEN CRISIS AND CONSEQUENCE 
               MANAGEMENT THROUGH TRAINING AND ASSISTANCE

                              ----------                              


                      THURSDAY, NOVEMBER 20, 2003

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Howard Coble 
(Chair of the Subcommittee) presiding.
    Mr. Coble. Good morning. The Judiciary Subcommittee on 
Crime, Terrorism, and Homeland Security will come to order. It 
is good to have all of you with us. I'll give my opening 
statement and be followed by the Ranking Member, Mr. Scott, and 
then we will hear from our panel.
    As we all know, in 2001, our nation was attacked without 
provocation and our citizens murdered by an organized but 
amorphous enemy. We all wish that day had never occurred and 
that such an enemy was not plotting to destroy the way of life 
we hold dear. But that awful event did happen and that enemy 
does, in fact, exist. Now we have no choice but to fight 
overseas and on our homeland to protect that way of life.
    As an aside, many people have compared our enemy today with 
Adolph Hitler. I think there is a salient distinction. Adolph 
Hitler, his thugs wanted to conquer the world. This crowd who 
is opposing us now, they are not averse to destroying the 
world, and I think that is indeed a difference.
    Those efforts are costly as we defend, but again, we have 
no option. We either sink or swim. That is why we must support 
our local law enforcement and emergency responders, the 
nation's first line of defense to protect the homeland. With 
that in mind, today's hearing will focus on our domestic 
efforts carried out by the Department of Homeland Security to 
assist and train the State and local officials to anticipate, 
prevent, and resolve a threat or act of terrorism, and God 
forbid, if one does occur, to respond immediately and 
effectively.
    As part of this review, the Committee will examine H.R. 
2512, the ``First Responders Funding Reform Act of 2003,'' 
introduced by Representative Sweeney from New York; H.R. 3266, 
the ``Faster and Smarter Funding for First Responders Act,'' 
introduced by Representative Cox, the gentleman from 
California; and finally, H.R. 3158, ``Preparing America to 
Respond Effectively (PREPARE) Act,'' introduced by the 
gentleman from Texas, Mr. Turner.
    These bills are designed to change the formula and 
standards used by the Department of Homeland Security to 
provide assistance and grants to States and localities to 
implement crisis and consequence management plans. Crisis 
management includes measures to identify, acquire, and plan the 
use of resources needed to anticipate, prevent, or resolve a 
threat or act of terrorism. Consequence management primarily 
fulfills the cleanup and restoration function after an attack 
occurs.
    Prior to the creation of the Department of Homeland 
Security, the Department of Justice through the Office of 
Domestic Preparedness offered the only integrated program to 
provide needed funds for training, equipment, and technical 
assistance to first responders for crisis management and 
consequence management for a terrorist threat or attack. While 
ODP has existed since 1998, it was first authorized in 2001 by 
the Judiciary Committee to establish Federal domestic 
preparedness programs and activities to assist State and local 
governments in their preparedness efforts.
    ODP provides State grants that enhance the capability of 
State and local jurisdictions to prepare for and respond to 
terrorist acts, including events of terrorism involving weapons 
of mass destruction. Immediately after the 2001 attacks, the 
Committee on the Judiciary met with the Office of Domestic 
Preparedness to determine whether they were on schedule to 
provide grants and assistance to the States. The Committee 
continued to monitor ODP's progress with the States and 
localities on this matter.
    In 2002, the administration and Congress created the new 
Department of Homeland Security. Over two dozen agencies and 
several offices and bureaus were transferred to the new 
Department, including ODP. The mission of ODP remained the same 
when it became part of the new Department. When Congress was 
considering transferring, the Office of Management and Budget 
proposed that the Federal Emergency Management Agency, FEMA, 
coordinate and conduct the grant program operated by the ODP 
and that ODP be placed in the division of the new Department 
that would be responsible for response.
    The Committee strongly disagreed with the idea of FEMA 
being the new home of ODP because FEMA is, in fact, a response 
management agency with no, and I don't mean this in a bad way, 
but with no understanding or capability to provide an 
integrated training program that includes crisis management. A 
terrorist attack is a Federal crime, and a crisis event which 
requires a response different from that of a natural disaster.
    As a result of the Committee's efforts, the ODP retained 
its responsibility for the coordination and management of these 
programs. The office was placed under the Border and 
Transportation Security Directorate because of that 
Directorate's support for crisis management measures, including 
the anticipation, prevention, and resolution of threats as well 
as post-incident response and consequence management.
    The Committee has heard reports from the first responders 
that ODP has done an excellent job, but there are still some 
concerns. For instance, a USA Today article entitled, 
``Homeland Security Money Doesn't Match Terror Threat,'' cites 
complaints that the Federal Government provides too much 
support to rural towns and insufficient to big cities and more 
densely populated States that are more likely terrorist 
targets.
    Now, we have a rural area and an urban area represented 
today. Mr. Scott's and my States would be somewhere between 
Idaho and New York. So we will have some sort of balance today.
    Some also believe that the grant process could be improved 
through new standards and a more efficient process. I hope the 
witnesses will explain the intricacies of the current process 
and programs that address some of the proposed changes to the 
process and standards and look forward to hearing from the 
witnesses today.
    I am now pleased to recognize the distinguished gentleman 
from Virginia, the Ranking Member, Mr. Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman, and I am pleased to 
join you in convening this hearing on first responder 
antiterrorism preparedness prevention and response. They are 
the two primary responsibilities of the first responders in 
their efforts to prevent acts of terrorism whenever possible 
and to address those that were not prevented.
    Since any act of terrorism falls under law enforcement, 
prevention will be much of the focus of law enforcement 
entities. Law enforcement must also focus on identification, 
capture, and prosecution of perpetrators of acts of terrorism. 
This makes any incident of terrorism a crime scene, requiring 
control to protect any evidence from destruction and 
contamination, as well as a chain of custody and other 
considerations which may be crucial to bringing perpetrators to 
justice.
    At the same time that law enforcement must focus on 
prevention and response to terrorism, we must assure that 
traditional law enforcement activities and capacities are not 
diminished or undercut. The heightened state of awareness and 
concern that we have been under since 9/11/2001, even false 
alarms or hoaxes or over-precaution, eat up a significant chunk 
of law enforcement time and attention.
    In addition to these important responsibilities, an equally 
important though distinct function of law enforcement first 
responders is to cooperate with and assist other first 
responders who address the casualties, damage to property, 
collateral threats, such as public health threats, that can 
stem from an incident of terrorism.
    All law enforcement personnel, as well as budgets, are 
grossly strained, and while it is clear that some places are at 
higher risk or threat of terrorism than others, the fact is 
that terrorism can strike anywhere, including where we least 
expect it. And depending on the nature of it, an act of 
terrorism anywhere, such as a nuclear incident or threat to our 
water supply, food supply, energy supply, information 
management, public health systems, can have devastating effects 
over a large area, if not the entire United States.
    So it is clearly a responsibility of the Federal Government 
to do all it can to contribute to the efforts to empower first 
responders to prevent and effectively respond to terrorist 
threats. But we must prioritize our expenditures. We do not 
have an unlimited amount of money. We must prioritize that in 
an intelligent manner.
    As the Chairman has indicated, all areas are not equally at 
risk, and we have to prioritize our expenditures accordingly. 
If we are doing snow removal, we do not fund Boston and Miami 
equally for snow removal. We prioritize snow removal money, and 
likewise, all areas of the country are not equally at risk, and 
we have to have a priority system to establish which areas are 
more at risk than others. And establishing that priority system 
ought to be part of any legislation that we adopt.
    Mr. Chairman, we look forward to hearing our witnesses 
today. I would like to ask unanimous consent that the gentleman 
from New York be allowed to have the balance of my time.
    Mr. Coble. The gentleman from New York, although who does 
not sit as a Member of the Subcommittee, we are pleased to have 
him, and without objection, is recognized for the minute and a 
half.
    Mr. Weiner. Thank you, Mr. Chairman. I appreciate it and I 
just want to take this opportunity to welcome Commissioner 
Kelly, who has been a great servant to this country and to my 
city, and my colleague, Congressman Sweeney, as well. I thank 
you, Mr. Chairman and Ranking Member.
    There is something that I think all of us agree upon right 
down, or right up to Secretary Ridge, that there is no way that 
we should be distributing to antiterrorism funding as if it 
were any other portion of the budget. It would be equally 
absurd to be distributing agriculture money equally to New York 
City as it is to Louisville as it is to distribute terrorism 
money equally to Louisville, Kentucky, as it is to New York 
City.
    The problem is that we in Congress envisioned, and frankly, 
the administration recognized, that there were certain high-
threat areas and in doing so identified seven cities, a list 
where there was chatter, a list where there was exposure, a 
list where there was greater danger. That list has been 
expanded now to 30 cities and it is soon going to go to 50 
cities.
    The situation is simply now that we are devoting the same 
attention to Minneapolis, Anaheim, Louisville, and Fresno as we 
are to New York City, where in fact, arguably, and we will hear 
testimony to this effect, we in New York City have more in 
antiterrorism demands in an average week in just overtime than 
some of these departments have in their entire police 
departments throughout an entire year. It is simply a fact of 
life in New York City, where we have to protect things like the 
United Nations, bridges and tunnels, gatherings of State 
leaders just about every day, that we have added costs and 
added needs.
    I would never stand up in the well of Congress and demand 
that New York City get equal access to, say, wheat subsidies. I 
think it is equally absurd for people in Charlotte, who have to 
protect such great institutions as the Charlotte Raptor Center, 
as getting the same amount of funding or at least be on the 
same list as a city that has to protect Wall Street and Ground 
Zero.
    I believe that as it was originally envisioned, the list 
was correct, roughly seven cities, seven high-threat areas, 
seven areas that had demonstrated this higher need. Now this 
list, unfortunately, Mr. Chairman, has become the classic pork 
barrel pork project that everyone wants to be a high-threat 
area.
    We are in New York City, literally and figuratively, Ground 
Zero for the war on terrorism. Commissioner Kelly will be 
testifying about what New York City has been up against in 
terms of costs. The effect of us diluting the high-threat 
grants formula has been to take money away from where the 
threat really exists.
    And I want to commend Congressman Sweeney, with whom I am 
cosponsoring legislation, to make this formula more fair, and I 
thank you, Mr. Chairman and Mr. Ranking Member, for holding 
this hearing.
    Mr. Coble. You are indeed welcome. We are pleased to have 
the gentlemen from Florida and Ohio. Did you all want to make 
opening statements, either of you?
    Our first witness this morning is the Honorable Sue Mencer, 
Director of the Office for Domestic Preparedness in the 
Department of Homeland Security. Director Mencer was nominated 
by President Bush and confirmed by the Senate on September 16 
of this year to serve in her present position.
    She served in the FBI for 20 years, from 1978 to 1998. 
After she retired, she worked as a consultant providing 
antiterrorism training for local law enforcement throughout the 
United States in cooperation with the Institute of 
Intergovernmental Research. In 2000, Ms. Mencer was appointed 
by the Governor of Colorado to serve as the Executive Director 
of Public Safety for that State. She graduated from the Ohio 
State University with a Bachelor of Science in education.
    Our second witness today is the Honorable Ray Kelly, 
unknown to none of us, the Police Commissioner of New York 
City, who will testify about the need of more resources in the 
urban areas. And the distinguished gentleman from New York, 
Congressman John Sweeney, has requested permission to formally 
introduce the Commissioner. Mr. Sweeney?
    Mr. Sweeney. Thank you, Mr. Chairman. Let me divert for a 
second and thank you and recognize you and Mr. Scott for the 
importance of this hearing, for the wisdom in conducting this 
hearing as we in Congress attempt to focus ourselves more 
keenly and get to some resolve in terms of the formulation 
issues and the other issues that are attendant to our 
responsibilities in making us more responsive to homeland 
security.
    I sit in a unique position as a Member on the authorizing 
side of the Select Committee and as a Member of the 
Subcommittee on Appropriations. I had the opportunity, in fact, 
to help construct the high-risk, high-density concept in the 
first supplemental. It was an important concept, but it is not 
the only one. And indeed, in fact, I think today we focus on 
the broader issue of not just high-risk, high-density, but 
really how we become as efficient as we possibly can.
    And we are joined in that endeavor by, I think, one of the 
most preeminent experts in the world, with extensive private 
and public sector experience, and I am pleased to introduce 
Commissioner Raymond W. Kelly of the City of New York.
    I would like to point out in this introduction, unlike my 
friend and colleague, Mr. Weiner, I am not a resident of New 
York City. In fact, Mr. Chairman, I am a resident and 
representative of the 32nd largest rural district in America. 
So this isn't necessarily about geographic competition. This is 
about how we in Congress ensure the most accurate and safest 
response that we can.
    Commissioner Kelly was appointed by Mayor Michael R. 
Bloomberg to his post, making him the first person to hold that 
post for a second and separate tenure. Immediately prior to his 
service as Police Commissioner, Mr. Kelly was the Senior 
Managing Director of Global Corporate Security at Bear Stearns. 
Before that, he served as Commissioner of the U.S. Customs 
Service. I think that, as well as anything, points out the 
diverse nature of his experience.
    Commissioner Kelly prior to that spent 31 years in the New 
York City Police Department, serving in 25 commands. That 
included a different stint as Police Commissioner from 1992 to 
1994. He was there before, during, and after, and he has been 
there to really understand the complexities of the issues that 
we face.
    Prior to that, he was a combat veteran of the Vietnam War. 
Commissioner Kelly retired as a Colonel from the Marine Corps 
Reserves after 30 years of service. He holds a bachelor's 
degree from Manhattan College, a J.D. from St. John's 
University, an L.L.M. from New York University Graduate School 
of Law, and an M.P.A. from the Kennedy School of Government at 
Harvard. He has received honorary degrees from a number of 
different sources.
    But I also think, Mr. Chairman, more importantly, 
Commissioner Kelly will give us the real kind of hands-on, 
nitty-gritty understanding of both our capabilities and our 
shortfalls and I thank you for having the wisdom of bringing 
him here.
    Mr. Coble. Thank you, John. You know, oftentimes, many 
people, when they hear New York, they synonymously think New 
York City, but you have just told us that there's a little bit 
of rural in New York, and in the rural South, Bobby, oftentimes 
when the minister starts preaching in a sermon and starts 
tramping on the toes of the parishioners, they accuse him of 
meddling. Mr. Weiner, when he talked about Charlotte, he is 
coming close to meddling in terms of North Carolina and 
Virginia, getting down our way, Bobby.
    But finally, we have heard from the urban side. Now we have 
the rural side represented. Our final witness is Mr. William 
Bishop, the Director of the Idaho Bureau of Homeland Security. 
Director Bishop will give the perspective of the rural States 
regarding the need for Federal support of first responders.
    Mr. Bishop was just promoted this October to his new 
position. Prior to that, he served as the Director for the 
Idaho Bureau of Hazardous Materials. In addition to providing a 
rural State perspective, Director Bishop can provide a non-law 
enforcement perspective as a former fire chief, which will add 
additional balance.
    Director Bishop has had a distinguished and interesting 
career that has ranged from managing homeland security to 
teaching to being a cowboy. Mr. Bishop received a B.A. with 
distinction from the University of New Mexico.
    Now, Mr. Bishop, I am a fan of the rodeo, but you say 
cowboy. Do you mean riding the range and herding cattle or do 
you mean riding those Brahma bulls, or both?
    Mr. Bishop. I mean herding cattle, working on the land. I 
had a stint as a roper. I found out you have to have eye-hand 
coordination and found other ways to donate money besides 
attending organized roping.
    Mr. Coble. Well, in any event, it is good to have each of 
you with us. Folks, the only thing I will ask you, I want you 
to keep a sharp lookout on that panel in front of you, and when 
that red light appears, that is your warning. Your 5 minutes 
have expired. We have your written testimony that has been 
examined. It will be reexamined. But in the interest of time, 
we may be called to the floor at any unknown time. So when the 
red light appears, that is your time. Your time is up.
    So we will start with you, Ms. Mencer.

STATEMENT OF THE HONORABLE C. SUZANNE MENCER, DIRECTOR, OFFICE 
FOR DOMESTIC PREPAREDNESS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Mencer. Good morning, Chairman Coble and Members of the 
Subcommittee. It is a pleasure and a privilege to be here today 
to talk to you about the Department of Homeland Security's 
Office for Domestic Preparedness efforts to provide support to 
our nation's emergency first responders. On behalf of Secretary 
Tom Ridge, the Department of Homeland Security, and the Office 
for Domestic Preparedness, I would like to express my 
appreciation for your support and your interest in Federal 
programs to combat terrorism. I have provided a written 
statement for the record, but in the interest of time, I will 
summarize my remarks.
    In the 10 months since DHS was established, significant 
progress has been made toward making America safer. To date, 
DHS has allocated or awarded approximately $7 billion to State 
and local governments to enhance security and overall 
preparedness to prevent, respond, recover from acts of 
terrorism, as well as natural disasters. A large majority of 
this assistance is provided through ODP.
    As you know, the Homeland Security Act vests ODP with the 
primary responsibility within the executive branch of 
Government for the preparedness of the United States for acts 
of terrorism. ODP's role in this capacity includes directing 
and coordinating preparedness efforts, assisting States and 
local jurisdictions with prevention, deterrence, response, and 
recovery from acts of terrorism.
    Since its establishment in 1998, ODP has provided 
significant support to our nation's emergency response 
community. To date, ODP has delivered weapons of mass 
destruction training to more than 325,000 emergency responders 
from approximately 5,000 jurisdictions nationwide. We have also 
conducted nearly 300 preparedness exercises, to include the 
Congressionally mandated TOPOFF Exercises 1 and 2.
    But let's make no mistake. Despite ODP's successes, as 
great as they are, we still have much work to do.
    ODP is currently working closely with all 50 States, the 
District of Columbia, Puerto Rico, and the U.S. territories, to 
develop a comprehensive, multi-year State homeland security 
strategy. These strategies are based on a thorough assessment 
of threat, vulnerability, capability, and needs, conducted at 
the local level and utilizing a process developed jointly with 
State, local, and Federal partners. When looked at in the 
aggregate, they provide a clear road map for our nation's 
preparedness and will assist ODP and its partners with 
allocating resources for homeland security.
    In addition to this strategy, we encourage regional 
cooperation in a way to maximize the valuable assets and 
resources and close the gaps. The vast majority of States have 
established regional prevention and preparedness efforts.
    For example, in Colorado, we have a multi-regional approach 
and multi-disciplinary approach. We have nine planning regions 
which we are using to develop our Statewide strategy. We are 
working with our other existing entities within our State to 
make sure that occurs.
    In Illinois, they use the Homeland Security Grant Program 
to fund and support regional prevention, preparedness, and 
response efforts for the past 4 years. Illinois has established 
three State WMD teams as regional assets that would augment a 
local response to a WMD incident and could respond anywhere in 
the State within 60 to 90 minutes of notification. Funding has 
also been used to create an Illinois Law Enforcement Alarm 
System and 15 regional containment teams. The State of Illinois 
is also taking a regional approach to the FY '03 State Homeland 
Security Assessment and Strategy, delegating responsibility of 
data collection and analysis to the regional level.
    ODP is committed to ensuring that States and local 
jurisdictions are able to maximize the impact of available 
homeland security funding. The recently announced $2.2 billion 
in the Homeland Security Grant Program combines three formula-
based funding programs for States and territories into a single 
application, including the State Homeland Security Program, Law 
Enforcement Terrorism Prevention Program, and the Citizens 
Corps Program. The consolidation of these programs has enabled 
ODP to streamline the grant application process and better 
integrate Federal, State, and local grant distribution and 
operations.
    The funding provided will be applied against critical 
resource gaps identified through the assessments and 
prioritized in the State homeland security strategies. ODP 
believes that only through addressing a combination of threat, 
vulnerability, and needs can homeland security be improved 
nationwide and that every citizen in the country is protected.
    ODP accomplishes this by administering two complementary 
programs, the State Homeland Security Program, which utilizes 
the USA PATRIOT Act formula, specifying a base amount for each 
State and territory plus an additional amount determined by 
population, and the Urban Areas Security Initiative, which 
utilizes a risk-based formula, taking into account threat, 
critical infrastructure, and population density. The latter 
program provides a dedicated funding stream specifically for 
the nation's higher-threat areas. By administering these both 
programs, we are able to ensure that critical first responder 
and first responder funding is targeted in the areas where they 
are needed. Thank you, sir.
    Mr. Coble. Thank you, Ms. Mencer.
    [The prepared statement of Ms. Mencer follows:]

                Prepared Statement of C. Suzanne Mencer

    Good morning, Chairman Coble and Members of the Subcommittee. My 
name is Sue Mencer, and I serve as the Director of the Department of 
Homeland Security's Office for Domestic Preparedness (ODP). It is a 
pleasure and privilege to be here today to talk about ODP's efforts to 
provide support to our nation's emergency responders. On behalf of 
Secretary Tom Ridge, the Department of Homeland Security (DHS), and 
ODP, I would like to express my appreciation for your support of 
federal programs to combat terrorism.
    Assisting states and localities is critical to DHS' mission of 
protecting the homeland. As Secretary Ridge has often stated, the 
homeland is secure only when the hometowns are secure. And the way to 
ensure that the hometowns are secure is to ensure that State and local 
officials, State and local emergency response agencies, and State and 
local emergency response personnel have the resources, the information, 
and the tools they need to do their jobs.
    Before the creation of DHS in March 2003, ODP was a component of 
the Department of Justice. With the passage of the Homeland Security 
Act of 2002, ODP was transferred to DHS. Further, the Homeland Security 
Act designates ODP as the principal federal agency for assisting State 
and local jurisdictions to prepare for, prevent, and respond to 
incidents of terrorism.
    In the ten months since DHS was established, significant progress 
has been made towards making America safer. Since its creation, the 
Department has provided a significant amount of support to States, 
territories, tribes, and localities in support of homeland security. To 
date, DHS components have allocated or awarded approximately $7 billion 
to state and local governments to enhance security and terrorism 
preparedness. A large majority of this assistance is provided through 
the ODP.
    Since its establishment in 1998, ODP has provided significant 
support to our nation's emergency response community. To date, ODP has 
delivered weapons of mass destruction awareness training and incident 
command training to more than 325,000 emergency responders from 
approximately 5,000 jurisdictions nationwide. Additionally, ODP has 
conducted nearly 300 preparedness exercises, including the Top 
Officials (or TOPOFF) I and II exercises.
    But let us make no mistake, despite ODP's successes, much more work 
needs to be done. Every day 180,000 DHS employees are focused on one 
primary goal--ensuring America is safe and secure. More significant, 
however, is that every day we share that vital mission with many times 
our number in State and local jurisdictions across the nation. These 
men and women, these first responders, are not just our partners, but 
they are essential to our success as a nation in securing our homeland. 
It is a priority of this Administration and the Department to 
effectively and efficiently meet our responsibility to support First 
Responders in fulfilling their critical role in our nation's counter-
terrorism efforts. We at DHS take very seriously the need to ensure 
that federal support is focused and well-organized.
    The Department recognizes the financial constraints placed on State 
governments, which require difficult decisions to be made about limited 
resources, and the Department is committed to helping states meet their 
needs in this area. It is the Department's view that Federal, State and 
local governments have a shared responsibility with respect to homeland 
security efforts. As such, State, territorial, tribal and local 
governments should take lead responsibility to directly fund the costs 
associated with traditional domestic preparedness. The Federal 
government's role, on the other hand, should largely be geared to 
building capacity for major events beyond normal operations. One of the 
most important federal roles is also to provide guidance, subject 
matter expertise, and technical assistance.
    To this end, ODP provides extensive support for local communities 
to conduct domestic terrorism preparedness exercises. Experience and 
data show that exercises are a practical and efficient way to prepare 
for crises. Exercises provide a unique learning opportunity to 
synchronize and integrate cross-functional and intergovernmental crisis 
and consequence management response. The tragic events of September 11, 
2001, taught us many things. One of the overarching lessons learned was 
that emergency responders need to respond in a coordinated and 
collaborative manner. Exercises allow cities and localities to practice 
their response to simulated terrorist incidents.
    Another critical component of ODP's mission is its ongoing Training 
and Technical Assistance Program, which provides an extensive array of 
terrorism preparedness training to Federal, State, and local emergency 
response personnel through a variety of training sites and methods. 
Through this program, ODP provides more than 30 direct training and 
technical assistance courses and programs to state and local 
jurisdictions. This includes training delivered in residence at ODP 
training facilities, on-site in local communities through mobile 
training teams, and through such electronic means as the Internet, 
closed circuit broadcasts, and video-conferencing. ODP terrorism 
preparedness training is tailored for a wide range of emergency 
responders, including courses for fire and rescue personnel, law 
enforcement officers, public works and public safety communications 
officials, emergency medical personnel, and many other disciplines. It 
also addresses a range of emergency response levels available to State 
and local emergency responders--awareness, performance, planning, and 
management.
    The National Domestic Preparedness Consortium (NDPC) is the 
principal vehicle through which ODP identifies, develops, tests, and 
delivers terrorism preparedness training to State and local emergency 
responders. The NDPC membership includes ODP's Center for Domestic 
Preparedness, the New Mexico Institute of Mining and Technology, 
Louisiana State University's Academy of Counter-Terrorist Education, 
Texas A&M University, and the Department of Energy's Nevada Test Site. 
Each consortium member brings a unique set of assets to the domestic 
preparedness program. ODP also utilizes the capabilities of a number of 
specialized institutions in the design and delivery of its training 
programs. These include private contractors, other Federal and State 
agencies, the National Terrorism Preparedness Institute at St. 
Petersburg Junior College, the U.S. Army's Pine Bluff Arsenal, the 
International Association of Fire Fighters, and the National Sheriff's 
Association. Additional training for first responders is delivered 
through other DHS training units, such as the Federal Law Enforcement 
Training Center in Glynco, Georgia, and the FEMA National Fire Academy 
in Emmitsburg, Maryland.
    To ensure coordination of our training efforts with other Federal 
agencies, ODP staff have established regular and recurring meetings 
with representatives from the Federal Bureau of Investigation, the 
Centers for Disease Control and Prevention, the Public Health Service/
Office of Emergency Preparedness, and the FEMA National Fire Academy 
and Emergency Management Institute to discuss and coordinate WMD 
training development and delivery of training courses. Additionally, 
ODP has on-site representation from the National Guard Bureau to 
coordinate program efforts and provide technical assistance and 
guidance.
    ODP also provides targeted technical assistance to State and local 
jurisdictions to enhance their ability to develop, plan, and implement 
a program for WMD preparedness. Specifically, ODP provides assistance 
in areas such as the development of response plans; exercise scenario 
development and evaluation; conducting of risk, vulnerability, 
capability, and needs assessment; and development of the Statewide 
comprehensive all-hazards domestic preparedness strategies that form 
the basis for receipt of Federal preparedness assistance funding. These 
strategies should incorporate local government concerns and assess the 
most effective ways to enhance preparedness and address areas facing 
high risk.
    Perhaps the most notable means through which ODP provides support 
to states and localities are the State Homeland Security Grant Program 
(SHSGP) and the Urban Areas Security Initiative (UASI).
    As you are aware, the FY 2003 Omnibus Appropriations Act, together 
with the FY 2003 Emergency Wartime Supplemental Appropriations Act, 
provided DHS with approximately $2 billion for ODP's SHSGP and $800 
million to fund ODP's UASI. The SHSGP funds were allocated according to 
a base plus population formula and the UASI funds were allocated in a 
manner prescribed by the Secretary to address the security requirements 
of high density urban areas, high threat urban areas, and for the 
protection of critical infrastructure.
    During FY 2003, all 50 States, the territories, and the District of 
Columbia received funding under SHSGP while over 30 urban areas, 
including mass transit systems and ports, received support under the 
UASI program. For FY 2004, the Congress appropriated an additional $2.2 
billion for ODP's Homeland Security Grant Program (HSGP), formerly the 
SHSGP, and $725 million for the continuation of UASI.
    Prior to allocating the UASI funds, DHS conducted a thorough and 
comprehensive review of population and population density, the presence 
and vulnerability of critical infrastructure of national significance, 
and credible threat intelligence data from several Federal agencies. 
Based on this analysis, the Department has determined that 50 urban 
areas including 30 mass transit systems are eligible funds under the FY 
2004 UASI program.
    The recently announced $2.2 billion HSGP combines three formula-
based funding programs for States and territories into a single 
application, including the State Homeland Security Program (SHSP), Law 
Enforcement Terrorism Prevention Program (LETPP), and Citizen Corps 
Program (CCP).
    This consolidation was done to streamline the grant application 
process and better coordinate Federal, State and local grant funding 
distribution and operations. The homeland security assessments and 
strategies currently being finalized by the 50 States, the District of 
Columbia, the Commonwealth of Puerto Rico, U.S. territories, and 
selected urban areas for submission to DHS-ODP will play a pivotal role 
in the identification, prioritization, and allocation of financial 
resources provided through the three grant programs. The funding 
provided will be applied against critical resource gaps identified 
through the assessments and prioritized in the State strategies.
    Providing funds through a single assessment and strategy, 
application and award process facilitates coordination of preparedness 
activities related to the goals and objectives identified in the State 
strategies, resulting in a more effective and efficient use of funding. 
A single application also minimizes time spent on the application 
process and consolidates reporting requirements.
    The three programs further provide the opportunity to enhance 
regional prevention, preparedness, and response efforts. States are 
encouraged to employ regional approaches and to adopt regional response 
structures whenever appropriate to meet the needs identified through 
the assessments and in the State's Strategy.
    While the Department is working hard to provide assistance and 
support to our nation's emergency responder community, it is 
continually looking to improve its own operations and how it does 
business. In order for State and local jurisdictions and first 
responders to be effective partners with the Federal government in 
securing our homeland, they need quick and easy access to the terrorism 
and emergency preparedness grant programs designed to support their 
work. Prior to the formation of DHS, terrorism and emergency 
preparedness grant programs were scattered throughout various agencies 
and departments of the Federal government. Many of these are now 
located within DHS, although several are divided among the Department's 
various components. However, with the movement of the Fire Grant and 
Citizen Corps programs to the ODP, the Department is one step closer to 
the ``one-stop shop'' that State and local governments have requested. 
In addition, the Department has established a web site, www.dhs.gov/
grants, listing all Federal homeland security and public safety grants 
as well as all Federal anti-terrorism training courses available to 
State and local officials. Despite all of this progress, it is 
Secretary Ridge's intention to move even further in better organizing 
DHS' grant-making and overall preparedness structure, and improve 
coordination with other Federal programs.
    We at DHS are convinced that State and local grant programs must be 
more centralized and more accessible. It is our goal to provide State 
and local authorities a single point of contact for terrorism and 
emergency preparedness efforts--one access point to obtain critical 
grant funding, and we look forward to working with Congress on this 
important issue.
    As the Subcommittee is aware there are a number of additional bills 
that would impact how DHS and ODP support our first responders. While 
we are still reviewing the particulars of each bill, we are in support 
of their goals and objectives--improving our ability to protect our 
nation.
    We have learned much about securing our homeland since September 
11th, 2001, including much within the past few months from Operation 
Liberty Shield. One of the lessons that has become clear is that the 
formula currently being used for distribution of ODP grants, and 
partially defined within the USA PATRIOT Act of 2001, can be improved 
upon.
    We at DHS have come to realize the shortcomings of the PATRIOT Act 
formula. The Congress, I believe, has seen them as well. Indeed, the 
need to separate funds out for high-threat urban areas was first 
recognized by the Congress and addressed in the Department's Fiscal 
Year 2003 Omnibus Appropriations Act. That need was again addressed in 
the Fiscal Year 2003 Emergency Wartime Supplemental Appropriations Act 
and the FY 2004 Department of Homeland Security Appropriations Act. We 
at the Department believe that more of the overall funds available to 
State and local governments need be distributed using the risk or 
consequence based formula of population density, presence and 
vulnerability of critical infrastructure of national significance, and 
credible threats, while at the same time recognizing that all 
jurisdictions need a baseline preparedness capability to prevent, 
respond to and recover from acts of terrorism and natural disasters.
    We look forward to working closely with the Congress, our nation's 
State and local first responders, and stakeholder communities to 
improve the distribution of funds to ensure effective support of state 
and local homeland security needs.
    Mr. Chairman, thank you for the opportunity to discuss the 
critically important work that the ODP is doing for our State and local 
emergency responders. Through the combined and collaborative efforts of 
Federal, State and local agencies, we have greatly enhanced the safety 
and security of our nation. At this point, I'd be happy to answer any 
questions that you might have about the programs of ODP.

    Mr. Coble. We are pleased to have all of you here, but I am 
especially happy to welcome a group of law enforcement people 
from Rowland County, North Carolina. It is good to have you 
fellows with us. I'm sure you'll benefit from this.
    Commissioner Kelly.

      STATEMENT OF THE HONORABLE RAYMOND W. KELLY, POLICE 
                 COMMISSIONER, CITY OF NEW YORK

    Mr. Kelly. Chairman Coble, Ranking Member Scott, Members of 
the Committee, thank you for the opportunity to testify. I want 
to thank Congressman Sweeney for that generous introduction as 
well as Congressman Weiner.
    There's no question that the terrorist threat to New York 
City is serious and ongoing. Terrorists have targeted New York 
City at least five times in the last decade alone. The first 
bombing of the World Trade Center in 1993 was followed by its 
destruction 8 years later. In between, there was a conspiracy 
to destroy the Holland and Lincoln tunnels, the George 
Washington Bridge, the United Nations, and the Main Federal 
Building in Lower Manhattan, as well as a plot to bomb the 
subway system. The subway plot was foiled at the last minute by 
a New York City police officer who broke down the door of two 
Palestinians who were putting the finishing touches on the 
device.
    Since then, two major news media outlets in New York City 
were the subject of anthrax attacks. And as recently as 
February of this year, a tough, seasoned al Qaeda operative 
named Iyman Faris was in New York City on a mission to destroy 
the Brooklyn Bridge. He was deterred.
    But New York City remains a target nonetheless. Just this 
past weekend, a police officer assigned to our transit system 
apprehended two Iranian agents engaged in reconnaissance of the 
subway. The intelligence community tells us that New York 
remains the terrorists' highest priority target in the United 
States.
    Homeland security funding formulas, however, do not 
recognize this fact. The funding is spread too thin and 
disproportionately away from the places most likely to be 
attacked.
    We know what to do to make New York less vulnerable to 
attack. We also have the personnel and the expertise to get it 
done. What we don't have is adequate funding from the 
Department of Homeland Security. The block grant formula where 
most of the funding originates does not consider threat at all.
    The Urban Areas Security Initiative, which seemed so 
promising at the outset, has been watered down as more and more 
localities are added to the list. In the first round, New York 
City received 25 percent of the funding allocated among seven 
cities. By the time last year's supplemental was announced, the 
list had grown to 30 cities and New York's share had shrunk to 
about 18 percent. Now there are 50 localities plus 30 
transportation agencies on the list and the share for the New 
York metropolitan region, not just the city alone, has dwindled 
to below 7 percent.
    New York City's Urban Area Grant was cut by two-thirds, the 
Washington, DC, area by half. And these are the most at-risk 
cities in the nation. Virtually every locality in the country 
can make claims to hypothetical threats, but the threats 
against New York City are very real, indeed.
    We know how al Qaeda thinks. If at first you don't succeed, 
try, try again. They viewed the first attack on the World Trade 
Center as a failure, so they came back with a vengeance on 
September 11. We have to be concerned that they will try to 
return to attack the targets that they were denied in New York. 
This is not a mystery. The plots were aimed at New York City, 
Washington, D.C., and in one instance Los Angeles International 
Airport.
    The legislation that Congressman Sweeney has introduced, as 
well as others the Committee is considering, is necessary 
because it makes threat assessment a priority in deciding how 
funding should be allocated.
    At the beginning of 2002, we created a new Counterterrorism 
Bureau. We assigned over 250 officers to it. On September 11 of 
2001, we had 17 detectives assigned to our Joint Terrorism Task 
Force with the FBI. Now, 121 are assigned there. When all is 
said and done, we have about 1,000 police officers directly 
involved in protecting the city against another terrorist 
attack.
    Our Hercules teams, comprised of specially trained officers 
with heavy weapons, appear unannounced at sensitive locations. 
They are there to respond to a terrorist incident and to 
disrupt the kind of surveillance we know that al Qaeda engages 
in.
    Our detectives met with, or meet with suppliers of 
explosives, laboratory equipment, scuba gear, specialized 
rental equipment, just about anything that a terrorist may want 
to acquire in advance of an attack. These suppliers now serve 
as trip-wires, warning us that preparation for an attack may be 
underway.
    Last March, with the commencement of the war in Iraq, we 
launched a heightened security program called Operation Atlas 
to protect New York City from possible reprisal. Given the 
ongoing terrorist threat, Operation Atlas remains in place 
today.
    The short version is this. We are doing a lot and it is 
costing a lot. We are grateful for the help we have received 
from the Federal Government, but it does not come anywhere near 
the need. Right now, over 80 percent of the Federal assistance 
to first responders across the country is distributed in the 
manner that is blind to threats, the vulnerability 
infrastructure, and the consequences of an attack. Congress can 
help rectify this problem by adopting changes proposed in the 
legislation before you.
    Again, thank you for this opportunity to testify and I will 
be happy to answer any questions.
    Mr. Coble. Thank you, Commissioner.
    [The prepared statement of Mr. Kelly follows:]

                 Prepared Statement of Raymond W. Kelly

    Chairman Coble, Ranking Member Scott and Members of the Committee, 
thank you for this opportunity to testify.
    There is no question that the terrorist threat to New York City is 
serious and ongoing. Terrorists have targeted New York City at least 
five times in the last decade alone. The first bombing of the World 
Trade Center in 1993 was followed by its destruction 8 years later. In 
between there was a conspiracy to destroy the Holland and Lincoln 
Tunnels, the George Washington Bridge, the United Nations and the main 
Federal building in lower Manhattan, as well as a plot to bomb the 
subway system. The subway plot was foiled at the last minute by the New 
York City police officers who broke down the door of two Palestinians 
who were putting the finishing touches on the device. Since then, two 
major news media outlets in New York City were the subject of anthrax 
attacks. And as recently as February of this year, a tough, seasoned Al 
Qaeda operative named Iyman Faris was in New York City on a mission to 
destroy the Brooklyn Bridge. He was deterred. But New York City remains 
a target, nonetheless. Just this past weekend, a police officer 
assigned to our transit system apprehended two Iranian agents engaged 
in reconnaissance of the subway. New York is the Nation's largest city, 
the world center for finance and communications, and in the estimate of 
the Federal intelligence community, the terrorists' highest priority 
target in the United States.
    Homeland security funding formulas, however, do not recognize this 
fact. The funding is spread too thin, and distributed 
disproportionately away from the places most likely to be attacked.
    The New York City Police Department alone spent $200 million in the 
last fiscal year to make sure we were not attacked again. The Police 
Department has also identified $261 million in training needs, 
equipment and supplies directly related to counter terrorism. We asked 
the Federal government for $261 million. And that $261 million request 
does not include requests from other New York City departments. The 
City of New York's initial estimate of its counter terrorism needs for 
all agencies, which I have attached, was $900 million. We've received a 
little less than $60 million for all the City agencies involved in 
counter terrorism and response.
    We know what to do to make New York less vulnerable to attack. We 
also have the personnel and the expertise to get it done. What we don't 
have is adequate support from the Department of Homeland Security. The 
block grant formula, where most of the funding originates, does not 
consider threat at all. The Urban Areas Security Initiative, which 
seemed so promising at the outset, has been watered down as more and 
more localities are added to the list. In the first round, New York 
City received 25 percent of the funding allocated among seven cities. 
By the time last year's supplemental was announced, the list had grown 
to 30 cities, and New York's share had shrunk to about 18 percent. Now 
there are over 50 localities plus 30 transportation agencies on the 
list, and the share for the New York metropolitan area has dwindled to 
below 7 percent.
    Virtually every locality in the country can make claims to 
hypothetical threats, but the threats against New York City are very 
real, indeed. There is nothing hypothetical about it. We know how Al 
Qaeda thinks: If at first you don't succeed, try, try again. They 
viewed the first attack on the World Trade Center as a failure. So they 
came back with a vengeance on September 11th. We must be concerned that 
they will try to return to attack the targets that they were denied in 
New York. This is not a mystery. The plots we know about were aimed at 
New York City, Washington, D.C., and in one instance, Los Angeles 
International Airport.
    The bill Congressman Sweeney has introduced, as well as others the 
committee is considering, is necessary because it makes threat 
assessment the leading priority in deciding how funding should be 
allocated.
    Iyman Faris, who I mentioned earlier, is the same man who fought 
alongside Osama Bin Laden, who engaged in a battle which included the 
wholesale slaughter of Russian prisoners, and who helped supply Al 
Qaeda fighters more recently with sleeping bags, airline tickets, cash 
and cell phones. Nearly two years after the destruction of the World 
Trade Center, Iyman Faris was in New York City. He stayed in a hotel 
near Newark airport. He rented a car there and drove into Manhattan. He 
ate at a Pakistani restaurant a few blocks from City Hall. And after 
conducting surveillance of the Brooklyn Bridge, Faris reported back to 
his handlers that, ``the weather is too hot;'' meaning security was too 
tight for the plot to succeed. I want to stress, again, that an 
experienced Al Qaeda operative, linked directly to Bin Laden, was in 
Manhattan plotting to destroy the Brooklyn Bridge just nine months ago.
    The highly visible security that the New York City Police 
Department had in place on the Brooklyn Bridge, in addition to the 
unseen protection, appeared to pay off in the Faris case. That is why, 
in the wake of last week's horrifying near-simultaneous bombings of two 
synagogues in Turkey, we have increased our visible presence around 
synagogues and other New York City landmarks and national symbols. The 
added coverage we have been providing at sensitive locations like the 
Brooklyn Bridge, synagogues and other national symbols, is just the tip 
of the iceberg in a comprehensive counter-terrorism strategy. At the 
beginning of 2002, we created a new Counter Terrorism Bureau. We 
assigned over 250 officers to it. About half of them were posted to the 
Joint Terrorist Task Force with the FBI. On September 11th of 2001 we 
had 17 detectives assigned to the Task Force. Now 121 are assigned 
there.
    When all is said and done, we have about a thousand police officers 
directly involved in protecting the city against another terrorist 
attack. We also dramatically expanded the role of our Intelligence 
Division. We are conducting around-the-clock threat assessments, and 
integrating this real-time information into daily decisions about where 
to place resources and personnel. We appointed outstanding individuals 
from outside the Department to lead our intelligence and counter-
terrorism functions. They have decades of CIA, counter terrorism and 
national security experience.
    We built a new counter terrorism center from scratch and staffed it 
with police officers who speak Farsi, Urdu, Arabic, and Pashto. We have 
sent New York City detectives with the FBI to Guantanamo, Cuba and to 
Afghanistan to interrogate terrorist suspects there. We have also sent 
our detectives to other international capitals to work directly with 
their counterparts in tracking down any threats to New York.
    At home, we are engaged in extensive training, and we are 
conducting drills on a daily basis. Our Hercules teams, comprised of 
specially trained officers, with heavy weapons, appear unannounced at 
sensitive locations. They are there to respond to a terrorist incident 
and to disrupt the kind of surveillance we know Al Qaeda engages in. We 
also regularly conduct something we call Sampson drills, involving 
teams of up to 100 officers at a time, including snipers, who can be 
dispatched quickly to any given location in the city.
    Our detectives meet with suppliers of explosives, laboratory 
equipment, scuba gear, specialized rental equipment--just about 
anything that a terrorist may want to acquire in advance of an attack. 
The Police Department has also held briefing sessions for various 
segments of the public who may come in contact with terrorist plotters. 
For example, we briefed real estate agents on exactly what Al Qaeda 
tells its operatives to look for in renting an apartment.
    Last March, with the commencement of the war in Iraq, we launched a 
heightened security program called ``Operation Atlas'' to protect New 
York City from possible reprisal. Given the ongoing terrorist threat, 
Operation Atlas remains in place today.
    It brings together all of the core elements of the Police 
Department; Patrol, specialized units, Counter Terrorism, and our 
Intelligence Division, in a coordinated defense of New York City. 
Checkpoints are established periodically at key locations into and out 
of Manhattan. COBRA teams, which specialize in biological and 
radiological response, have been deployed throughout the city. We have 
increased protection of commuter ferries. Archangel teams, composed of 
emergency services personnel, bomb experts and investigators, have been 
staged across the city. Hammer teams, the police and fire department 
experts in hazardous materials, have been deployed jointly. We are also 
having teams of officers board subway trains, and search them car-by-
car for anything suspicious. We want to discourage or even intercept a 
terrorist attack in the subway system. We have put a medical team 
together to help us train and protect police officers who might face 
biological or other unconventional weapons.
    The short version is this: We are doing a lot, and it is costing us 
a lot; something on the order of $200 million a year in operational 
expenses for counter terrorism in the Police Department alone. Only 
recently has financial help from the Federal government begun to 
arrive. We are grateful for the help, but it does not come anywhere 
near the needs that we have. Part of our challenge is, of course, the 
fiscal restraints under which we all must operate. You may not be able 
to do anything about those. But you can correct the system that sends 
more than 80% of the Federal assistance to first responders across the 
country in a manner that is blind to the threats this country faces, 
blind to the vulnerable infrastructure that exists in different places, 
and blind to the consequences of an attack.
    Of the total of approximately $232 million in Federal assistance 
for New York City, during the last two federal fiscal years, 70 percent 
of those funds have come from the High Threat Urban Area program, even 
though that program accounts for only about twenty percent nationally 
of the federal assistance for first responders. The High Threat Urban 
Area program attempts to compensate for the failure of the other 
programs to address the country's counter-terrorism needs. 
Unfortunately, it does not succeed in correcting the lack of any 
consideration for threat in the other programs.
    In fiscal 2003, the Federal government provided a total of $3.45 
billion for first responders through the Department of Homeland 
Security in three major programs: $1.9 billion in homeland security 
formula grants to states, $750 million in Firefighter Assistance 
Grants, and $800 million for high threat urban areas. Only the last 
program for High Threat Urban Areas--which was only 23 percent of the 
total--takes into account terrorist threat, vulnerabilities and 
consequences.
    In fiscal 2004, the total amount and proportion of funds being 
distributed on the basis of threat and need has declined. For this 
year, high threat urban areas will receive $725 million, nearly a ten 
percent cut, while the other programs will receive $2.95 billion, more 
than a ten percent increase. The result is that more than 80% of the 
Department of Homeland Security's first responder funds will be 
distributed blind to the nation's counter-terrorism needs. In real 
terms, for example, let's look at New York City and the National 
Capital Region, our Nation's highest threat areas. In New York City the 
high threat funding this year when compared to last year was slashed by 
an astounding two-thirds, and in the National Capital Region, by half. 
These deep cuts were made despite the fact that both areas were 
previously attacked--New York more than once--and both remain the 
targets of choice for international terrorists.
    Let me first tell you why I am including the firefighter assistance 
grants in these totals. I recognize that there are needs in many 
communities throughout the country and that the Firefighter Assistance 
grants program existed prior to the events of September 11, but it has 
been increased greatly in response to September 11. I am not suggesting 
that those funds should be distributed on the basis of threat, but 
neither can their existence be ignored. Because these grants are 
limited to a maximum of $750,000 per jurisdiction, they are of little 
help in those areas that have significant counter-terrorism needs, 
though they can be a significant help to rural areas and smaller 
communities.
    Regarding the Homeland Security formula grants to the states, they 
were created after the events of September 11 and are a direct response 
to those terrorist attacks. They should be distributed on the basis of 
known threats, the presence of critical infrastructure and the 
magnitude of the consequences of an attack. Currently, those grants are 
distributed completely otherwise. Each state receives three-quarters of 
one percent of the total amount and the remainder is distributed on the 
basis of the state's population.
    The result is virtually a complete mismatch between the funding 
provided under this program and the need, as evidenced by the 
Department of Homeland Security's funding of the high threat urban 
areas. I have attached a table that compares the funding received by 
the ten states that received the most high threat urban area funds and 
their ranking, on a per capita basis, of the formula grants. New York, 
which received the most high threat funds, ranked 49th in the formula 
grants. California, which received the second most high threat funds, 
ranked 50th. Texas, which received the third most high threat funds, 
ranked 48th.
    Incidentally, Mr. Chairman, I was Commissioner of U.S. Customs when 
Ahmad Ressam, the millennium bomber, was captured by Customs inspectors 
as he attempted to smuggle explosives into the U.S. as part of a plot 
to bomb Los Angeles International Airport. More evidence, I believe, 
that Al Qaeda focuses on high profile, major city targets.
    It is clear that large amounts of the first responder funding are 
not going where they are needed. The result is wasted resources and, 
much worse, a population placed at risk of attack and of the economic 
consequences of an attack. Some have suggested that the high threat 
funds ``make up'' for the misdirected block grant and firefighter 
grants but the goal is not to even out every state and locale. We are 
in a war against terror and we must deploy our resources where they 
will do this country the most good.
    In light of this, I have a few recommendations.
    First, the funds in all of the programs to assist first responders 
established after September 11 should be distributed on the basis of 
three factors--known threats, the presence of vulnerable critical 
infrastructure, and the consequences of an attack. I want to thank 
Chairman Cox, Congressman Turner and Congressman Sweeney for 
introducing legislation that would move these programs in that 
direction.
    Second, as you can see from my description of the steps that New 
York has taken, personnel costs are a significant part of the expense. 
Consequently, overtime costs and the personnel costs associated with 
training and with filling positions while personnel are being trained 
should be eligible uses of the funds.
    Third, the funds should be directed to local governments. 
Currently, this is done by requiring a minimum pass-through to local 
governments. In New York, the City and the State are working very well 
together. I would also recommend that the Department have the authority 
to provide grants directly to individual local governments, as was done 
in the first round of High Threat Urban Area grants.
    The funds should not require maintenance of effort on the part of 
the local governments as a condition of the grant. Such a requirement 
can result in the denial of Federal assistance just when it is needed 
most. Unlike the federal government, local governments cannot run 
deficits. As a result they may have to cut expenditures and if there is 
a maintenance of effort requirement they could become ineligible for 
federal grants. Similarly, any matching requirements should be 
interpreted to include, for example, in kind contributions.
    Finally, State and local governments should be able to make 
procurement purchases through the federal contracts already negotiated 
by the General Services Administration. In New York, for example, the 
City can purchase equipment through statewide contracts. If State and 
local governments were able to do this through federal contracts, it 
would be more expeditious, help ensure the interoperability of the 
equipment and would probably produce a cost savings.
    The City has its own budget difficulties. This year the City of New 
York closed an $8 billion deficit. The deficit for next year is 
estimated to be an additional $2 billion. Although the Mayor has 
attempted to protect the Police Department from cuts, even we have had 
to reduce our expenses. I would just like to note here, that the City 
estimated that it lost $3 billion in revenues directly as a result of 
the September 11 attacks, and not as a result of the general economic 
slowdown, in 2002 and 2003. That estimate was reviewed and validated by 
the General Accounting Office. Although the City has been promised $20 
billion from the federal government post-September 11, that figure will 
cover only about one-quarter or less of the actual losses, both to the 
City and the City economy, from the attack. The City did not receive 
any Federal assistance for lost tax revenues. We are grateful for the 
Federal assistance received to date but the City needs further 
assistance to meet the threats posed by this war on terror.
    Thank you for this opportunity. I would be happy to work with you 
on any proposals and I will be glad to answer any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Director Bishop.

 STATEMENT OF WILLIAM H. BISHOP, DIRECTOR, BUREAU OF HOMELAND 
                    SECURITY, STATE OF IDAHO

    Mr. Bishop. Mr. Chairman, Members of the Committee, thank 
you so much for having me here. I have got to share with you 
that I am honored to share this table with Commissioner Kelly 
and Ms. Mencer.
    Three weeks ago, a UPS truck stopped at St. Luke's Hospital 
in Boise, Idaho, and tracked a white powder from that truck 
into the receiving area in the emergency department. St. Luke's 
is our primary hospital in the City of Boise and in the 
Treasury Valley for obstetrics. The other hospital would like 
to be, but St. Luke's is.
    Within 45 minutes, we were able to determine that white 
powder was, in fact, a soap product advertised on TV, and we 
did that with a piece of infrared spectrography equipment that 
we purchased for our seven HAZMAT teams through the ODP grant 
system. It works. It works. It works every day for us. It 
resolved an incident in 45 minutes that would have taken at 
least 48 hours to confirm that it was not a biological agent.
    We are making good use of this money. We think it is very, 
very important. But I also have to tell you that I am concerned 
about overplaying threat and vulnerability analysis, and the 
reason I am concerned about it is that our track record has not 
been good. We think we understand the mentality and we think 
that we understand where they are going to go next, but they're 
predators, and we understand that if we harden one target, if 
we, as Commissioner Kelly makes great progress in New York 
City, other targets are going to become the targets of choice.
    I think perhaps there is some expectation that this might 
be a WWF kind of event between Commissioner Kelly and I and I'm 
sorry to disappoint you because I don't think the issue is 
rural versus urban. A long, long time ago, somebody in this 
country said, if we don't hang together, we'll hang separately. 
New York City needs a lot of money. It's a jewel for this 
nation. The State of Idaho, as other rural States, understand 
that. We understand they have a great complexity and a great 
need. However, we also need to make sure that we don't create a 
greater vulnerability in the rural States by diverting 
resources to more urban areas.
    I share Commissioner Kelly's confusion over an urban area 
initiative that started out with seven and continues to grow. 
We see the same thing in our State, in which people's feelings 
are almost hurt and they feel as though you're just not giving 
them enough value if you don't name them a top-ten target. I 
think the proper way to do this is to have a base allocation 
and then enhancement, such as was contemplated originally with 
the Urban Areas Initiative.
    I need to take just a moment, as well, of my time and talk 
about standards, because that's implicit in a number of the 
pieces of legislation before us. And I've got to tell you that 
there are standards and there are plenty of standards. They are 
not well catalogued. They are not well brought together. We 
need to do that.
    But as an example, we encountered difficulty in buying 
self-contained breathing apparatus because it was being tested 
by NIOSH for CBRNE agents. And just as the tests were complete 
and some of it was getting certified, we were within 2 months 
of the new NFPA, National Fire Protection Association, standard 
becoming effective, a consensus standard. And so we waited 
until the breathing apparatus met both standards before we 
started expending these funds.
    Lastly, I've got to tell this Committee and the United 
States Congress and the Office for Domestic Preparedness that 
this program is working. We need to tinker with it some, but it 
is working. The men and women in the Office for Domestic 
Preparedness have provided an outrageous amount of support to 
the State of Idaho and the other States. Weekends, evenings, 
they're always there for us. They've worked with us. We've 
worked through some serious problems together. They're doing 
the job. I would ask that we give them a little bit of an 
opportunity to work in a stable environment because it's really 
changed a lot every year in the last 4 years.
    Thank you, sir.
    Mr. Coble. Thank you, Mr. Bishop.
    [The prepared statement of Mr. Bishop follows:]

                Prepared Statement of William H. Bishop

             H.R. 2512, H.R. 3158, H.R. 3227, AND H.R. 3266

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to speak with you in regard to pending legislation that 
will affect not only my state, but emergency responders in all the 
states and territories as well as the safety of every one in our 
country.
    While I speak to you today as the Director of Idaho's relatively 
new Bureau of Homeland Security, I bring with me the perspective of a 
former Fire Chief in a small rural Montana Fire Department and a 
hazardous material responder and agency manager. I have also been the 
``State Administrative Agency'' for the various versions of the federal 
``First Responder Grant'' programs from their inception in 1999 to the 
present.
    I would first like to discuss the concept of threat, vulnerability, 
and risk because that concept is pertinent, if not at the core, of all 
four bills before this committee today.
    Threat, vulnerability, and risk assessments are accurate for only a 
short moment in time. They are only snapshots. Any assessment should 
always be dynamic, rolling and held in suspicion by those who use it--
and those who produce it. It is vital to our public safety and our 
nation's security that we not over emphasize any given assessment at 
any given moment. If we focus too tightly on a particular assessment, 
we will surely miss a vulnerability that arises within the next hour, 
day, or week.
    There can be found no better example than the tragic event at the 
World Trade Center on September 11, 2001. Please, please understand my 
remarks are not meant to criticize the actions of anyone leading up to 
that day. But we owe it to all who perished and were harmed to learn as 
much as we can from the events of that day.
    After the attack upon the World Trade Center in 1993, local, state 
and federal agencies came together to rebuild, redesign and harden that 
facility. Particular attention was given to ensuring that there was no 
possibility of a reoccurrence of a motor vehicle based attack. That 
effort was an extraordinary success. I attended a conference at the WTC 
in 2000 and took great recognition of the labors of those who had made 
such great improvement. I was impressed and took away some great ideas 
to improve the security of facilities in Idaho.
    The attack of September 11th came elsewhere on the structure using 
another means of delivery and exploiting an unanticipated, and until 
that day, inconceivable vulnerability.
    Among the thousands of lessons we need to learn from the loss of so 
many souls are these two:

        The elimination or reduction of vulnerability in one location 
        invariably creates vulnerability in another because those we 
        call terrorists are simple predators that are adept at looking 
        for, finding, and exploiting weakness.

        We need, to the extent possible, manage our vulnerabilities as 
        though they were ball bearings on very flat plate. If the plate 
        is not kept level, very level, the bearings quickly cascade of 
        the plate. We lose not just a single bearing, but likely all of 
        them. Actions which over emphasize one vulnerability, will 
        always tip the delicate balance of vulnerabilities and will 
        decrease our security in other locations.

                               H.R. 2512

    I believe H. R. 2512 might lead our nation's management of risk, 
vulnerability and threat to be too static, unresponsive, and dangerous. 
If, for example, our neighbors in the State of Washington become less 
vulnerable because of increased response capability and target 
hardening, we in Idaho are more at risk unless we make commensurate 
improvement.
    I would respectfully suggest that H. R. 2512 does not well serve 
either Idaho's or the nation's security. It will likely relocate some 
vulnerabilities from currently higher risk areas toward areas that 
might now be at a slightly lower risk. In this war on terrorism, I can 
not afford to have a higher vulnerability than my neighbor. I become 
the more desirable prey--and that serves neither the nation nor the 
citizens of Idaho well. I would suggest leaving the base funding as it 
now is in Section 1014 of the Patriot Act.

                               H. R. 3266

    H. R. 3266 also offers problems in how the nation would apply 
threat, vulnerability, and risk in its language proposed to amend 
Section 802 of the Homeland Security Act of 2002. It is not very likely 
that the World Trade Center, Boca Raton, or this city itself would have 
met the need for specificity under Section 802(e)(3), (4), or (5). The 
required specificity in those sections presumes a level of reliable 
intelligence and anticipation for which we, as a nation, lack 
capability. The World Trade Center would probably not have made the 
list because we believed it to be hardened. The threat of anthrax 
exposure was too vague before the fall of 2001. Most responders would 
not have seen anthrax exposure as a specific threat in virtually any 
location in the country.
    A similar problem in H. R. 3266 is that it looks at specific damage 
in specific locations. It is the nature of terrorism that a gross 
failure to protect citizens in Stanley, Idaho can substantially erode 
the confidence of citizens throughout this country in their 
government's ability to protect them from attack. As in all states, 
emergency responders ran hard day and night to deal with Anthrax fears 
during late 2001 and 2002. We successfully resolved all calls within 24 
hours--including several that our FBI colleagues felt had very high 
potential. The priorities in Section 802(e)(5) would have to include 
``the ability to engender fear'' in order to be meaningful in a 
vulnerability assessments.
    Our current management of threat, vulnerability and risk is working 
well because we use it dynamically and the Office of Domestic 
Preparedness has helped us adapt to changing intelligence and improving 
technology.
    The Equipment Grant programs currently administered by the Office 
of Domestic Preparedness are very effective because they are 100% 
federally funded. That formula means that equipment is place where it 
is most effective without being ``held hostage'' by conflicts in 
perception of priorities. For equipment specifically, I would suggest 
that 100% federal funding be maintained even if it means less equipment 
purchased. The program will be less costly to administer and less prone 
to delay. A 25% local or state match may be more appropriate in the 
areas of planning, training, and exercising.
    The proposed sanctions in H. R. 3266 concerning timely distribution 
of funds would present a nightmare to all three branches of government. 
In this branch, I can foresee Members bombarded by requests from 
constituents, organizations, and Governors. The Department of Homeland 
Security will be faced with managing the same grant process in at least 
three ways, and there are bound to be court battles that border on the 
absurd.
    I know that timely distribution of funds is an issue. We in the 
states are trying very hard to streamline, accommodate and meet our 
legal responsibilities both in grants management and distribution of 
funds. It is a popular notion that the system is ``broken.'' I would 
suggest that there is no system.
    In our haste to do the right thing, we have changed the ``rules'' 
in providing equipment at least annually since 1999. New programs are 
added, emphasis changed, and guidance changed. The funding in 2003 
ballooned between the original appropriation and the supplemental. The 
rate and amount of change has been extraordinary and the Office of 
Domestic Preparedness and the states have struggled to staff, develop, 
and execute appropriately. I particularly commend the efforts of the 
staff at ODP. They have labored well into the night and on through 
weekends to make the current programs work during a period of change 
that is unprecedented in our nation. I would ask this body to let our 
colleagues in the Department of Homeland Security and the states have 
an opportunity to work in a slightly less dynamic environment during 
the coming year. Further complicating the process of administering the 
grants by developing permutations of jurisdictional grant management 
options will lead to failure of the whole system. I will guarantee an 
exponential increase in waste, fraud, and abuse, mostly by error, if 
congress enacts Section 802(h)

                               H.R. 3158

    I believe we need standards in the realm of homeland security and 
terrorism preparedness. I don't believe we are bereft of standards, 
however. There are a combination of pertinent federal, state, and 
consensus standards that hold sway. Annual evaluations of preparedness 
based on Federal Emergency Management Agency criteria have been long 
been done. That there is not a well codified ``federal'' set of 
standard is a concern, but does not constitute a ``a public policy 
crisis.''
    This is an arena in which haste is almost certain to make waste. I 
believe that the Department of Homeland security--only 8 months old--
has sufficient initiatives underway to begin the process of standard 
development. Some efforts require time and a form of gestation to 
develop well and fully. Increased funding and adding more people often 
does not cause the desired results. As a great neighbor of mine in 
Montana once said ``Just because it takes a cow 10 months to have a 
calf, it doesn't follow that if you get 10 cows together then you can 
have a calf in one month.'' From where I sit, this looks like ``10 
cow'' legislation
    I strongly disagree that ``The Federal Government should play a 
predominant role in assisting communities to reach the level of 
preparedness they need to respond to a catastrophic terrorist attack.'' 
I am committed to a full partnership among federal, state, and--most 
importantly--local responders. The federal government should be a full 
and significant partner--but not predominant. It will be local people 
that will die during a large incident and it will be local responders 
will have the greatest effect in saving lives. We need and want federal 
partners, but neither need nor want federal predominance.
    Some specific comments are:

        1.  Section 1804(C) Emergency Medical services are really of 
        many types in the nation. Significant differences include: Fire 
        based services versus stand alone services; advanced life 
        support versus basic life support, paid versus volunteer, and 
        private versus public providers. I'm not sure that two 
        representatives can be representative.

        2.  Section 1804(G) Given the broad spectrum of hospitals and 
        medical providers, I am again doubtful two representative can 
        be representative.

        3.  Section 1804 The Bureau of Alcohol, Tobacco and Firearms, 
        the Federal Bureau of Investigation and the National Fire 
        Administration should be named as de facto members.

    While there is certainly a national security interest in defining 
``essential capabilities'' doing so at the federal level radically 
changes many emergency preparedness principles. First and most 
important is that communities have usually set their own level of 
service through local legislation and budget. While federal support in 
equipment, training, and exercising is important, we quickly reach the 
point at which emergency responder staffing is the limiting factor in 
reaching capability goals. Staffing levels are usually set by local 
budgets. I've not heard any initiative to provide for continuing 
staffing support for operations. To the contrary, the informal 
discussions I have heard is that the federal government has no interest 
in providing permanent staffing where none now exists. Meeting 
nationwide standards for essential capabilities given staffing 
limitations at the state and local level is very unlikely.

                               H. R. 3227

    While the provision of this bill are less invasive to state and 
local perogatives, I would like to, nonetheless, offer some 
perspective.
    Section 2. Findings (3). I do not agree that ``the standard setting 
activities . . . need to accelerated and coordinated.'' Given the 
upheaval and complexity of forming the Department of Homeland 
Security,I would suggest that letting the agency go to work is a good 
idea. I also would point out that there are useful standards 
available--those standards are just spread broadly through federal 
agencies and consensus organizations.
    Section 2. Findings (4). The finding represents a value judgement 
that is widely held. I think that preparedness for attacks involving 
weapons of mass destruction has increased incredibly in the last two 
years. I certainly would not suggest that we're done--that we're 
completely ready. But the popular and oft repeated notion that we are 
no better off today than we were on September 11th is not true and is 
an insult to virtually all emergency responders at the local, state, 
and federal level. These men and women have worked hard. They have some 
equipment that they had not even dreamed of 4 years ago. They have 
training and skills that would have seemed irrelevant 4 years ago. They 
are well on the way to extraordinary preparedness--and have succeeded 
beyond what would have been reasonable to expect in such a short time.
    Section 2. Findings (5). There is risk of waste here. While 
standards will offer some help, the greatest risk of waste comes from 
undue haste and lack of oversight.
    Section 510. Emergency Preparedness and Response Standards (d). I 
would suggest adding the National Emergency Management Association as a 
cited group.
    Thank you again Mr. Chairman and Members of the Committee. That 
this Subcommittee and the members of Congress continue to work to 
enhance national security and take such great interest in the well 
being of first responders is of great credit to this body. We in the 
field will always find a way of supporting the results of your 
deliberations.

    Mr. Coble. Now, folks, we impose the 5-minute rule against 
ourselves, as well, and Mr. Weiner, I will recognize all the 
Members of the Subcommittee first and then I will give you a 
chance to examine the witnesses at the conclusion.
    Ms. Mencer, Congress provided $2 billion in appropriations 
for the ODP State Homeland Security Grant Program and its new 
Urban Area Security Initiative. If you will, explain the 
difference between these two programs, A, and B, does the new 
Urban Area Security Initiative address the concern that 
additional funds are needed in higher-threat areas, and if so, 
how?
    Ms. Mencer. Yes, Mr. Chairman, I'd be happy to. The first 
grant, the State Homeland Security Grant, provides a minimum 
base funding level for all States, with remaining funds 
distributed based on population, as well. The Urban Area 
Initiative Grant, however, looks at different areas. We look at 
the infrastructures that are there. We look at the threats to 
that area. And then we look at the population density, as well. 
So we think we have a balanced approach there using a base 
level funding for all the States and then adding to that with 
the Urban Area Initiative a more concentrated effort on where 
we have the highest concentration of our critical 
infrastructures and our threats.
    Mr. Coble. Commissioner Kelly, do you see any way of 
protecting rural States and cities and still by the same token 
improving the grant program for the higher risk usually urban 
areas?
    Mr. Kelly. Yes, Mr. Chairman, I do. I think Congressman 
Sweeney's bill addresses that issue. It gives an equal amount 
of money to each State, if I understand it correctly, one-half 
of 1 percent to each of the States, and then the balance of the 
money is distributed based on a threat analysis. To me, this 
certainly addresses the concerns in the rural areas. The States 
will have to make the judgments as to where their resources are 
distributed, but to me, it makes common sense to put the 
majority of the available funds at places that are deemed to be 
at a higher risk.
    We don't have unlimited resources. In an ideal world, 
everybody would get everything that they want. We just don't 
have that ability. I would recommend, of course, that the 
majority of funds be distributed on a threat basis with the 
base amount as Congressman Sweeney lays out in his legislation, 
being distributed equally to all 50 States.
    Mr. Coble. Mr. Bishop, in your testimony, you stated that 
H.R. 2512 might lead to our nation's management of risk 
vulnerability and threat to be too static, unresponsive, and 
dangerous. Elaborate, if you would, on that.
    Mr. Bishop. Mr. Chairman, I think history shows us, 
absolutely the events of today show us, that as predators, 
these people act to create terror as much as they act to damage 
infrastructure. Our ability to protect, in this case act 
effectively on intelligence and divert an attack and help the 
government of Turkey divert an attack, just didn't work very 
well, and the reason it didn't work very well is because we had 
hardened and we were paying attention in other arenas.
    I think that the difficulty in using a threat analysis done 
this year to allocate funds for the next year or the next 4 
years is that events with terrorists are so dynamic that it 
often has to be rolling in moment by moment.
    I agree with, again, I agree with Commissioner Kelly that 
we have got a real well identified threat toward New York City 
and some other urban areas, as well. However, in the City of 
Boise, we also have some multinational corporations who operate 
in Indonesia and have plants in Indonesia and connections with 
Indonesia and we know from intelligence that Indonesia is, in 
fact, at this moment, one of the hotbeds of radical Islamist 
folks and our intel is that we have some pretty strong 
potential targets that happen to be in a more rural State.
    Mr. Coble. Well, my red light is about to appear, so we may 
have a second round here as we go along.
    The gentleman from Virginia is recognized for 5 minutes.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Ms. Mencer, you indicated that you are in the process of 
prioritizing expenditures. That is, you are going to put more 
money where the threat is heightened. Are you getting 
information from other agencies, the CIA and others, to 
ascertain where those threats are more likely to occur?
    Ms. Mencer. Yes, sir, we are. We have a very detailed 
matrix that we use to determine the urban area grants, which 
included information from the CIA and the FBI to help us 
determine where the threats are. I think we want to be careful 
when we look at threats and not just be myopic and focus on a 
threat from the Middle East. I think we only need to look at 
Oklahoma City to remember that terrorism can strike anywhere at 
any time and be done by a variety of different folks.
    Mr. Scott. Is there a formula or do you just keep this in 
the back of your head as you make grants?
    Ms. Mencer. Well, we assign a numerical value to each of 
the elements in the matrix.
    Mr. Scott. Is there also a part of the grant program that 
establishes what one bill refers to as essential capabilities 
needed to respond? That is, what do the local first responders 
actually need in terms of equipment and training to properly 
respond and do those that are on the high priority list have 
those? Is establishing a list of essential capabilities part of 
the work that you do?
    Ms. Mencer. That is certainly something that will be 
hopefully examined very carefully when we get our assessments 
back from the States, their strategies on December 31, and that 
is a----
    Mr. Scott. That is what you are getting back from them. Are 
you establishing for them a list of capabilities?
    Ms. Mencer. Well, the problem with that is each area is so 
different in its composition and makeup and what they actually 
need to protect what they have that it would be hard to develop 
a one-size-fits-all approach for each of the areas. But it's 
certainly something that we're working on and working to 
develop.
    Mr. Scott. You indicated that the States were doing the 
State plans and Illinois had done a good job. Does each State 
have to reinvent the wheel, or can the other States that 
haven't quite finished up benefit from the work done in the 
States that have already completed their work?
    Ms. Mencer. Well, I think the Department of Homeland 
Security has tried very hard to make sure that all the States 
can communicate with each other through conference calls, 
biweekly conference calls, also with meetings that we've held 
with the Homeland Security Advisors, of which I attended when I 
represented Colorado. I think they've done a good job of trying 
to share best practices, and we in ODP try very hard to make 
sure we can provide the technical assistance to all States and 
share with them what we see in other States, as well.
    Mr. Scott. You mentioned communication, compatibility with 
communications networks between agencies and between States. Is 
that part of something that Homeland Security is working on?
    Ms. Mencer. Certainly interoperability is something that 
everyone is concerned about. Coming from Colorado and Littleton 
in particular, I can tell you interoperability is something 
that's always on my mind. I think it is something we can do 
better and I think we are continuing to do that. But certainly, 
they can use some of these funds for interoperability issues.
    Mr. Scott. Are there enough funds to solve that, because I 
know that's been one of the problems that comes up after every 
event, that some agency couldn't talk to another.
    Ms. Mencer. Yes. Interoperability is a very costly thing 
because the radio equipment is very costly. There are quick 
fixes and short-term remedies to that which can be purchased 
which aren't as extensively dramatic in terms of cost and we 
have some of those in Colorado, as well, that link different 
radio frequencies together. But there are solutions short of 
doing a complete interoperability change of radios for every 
State.
    Mr. Scott. One of the things that we saw after Hurricane 
Isabel was the kind of work that citizens can do when they're 
called. One of the bills includes an Office for Citizen 
Preparedness. Is that something that you're working on, so that 
people can be prepared to fulfill certain functions, food 
service deliveries, cutting trees, this kind of thing?
    Ms. Mencer. Yes, sir. We now have Citizens Corps under our 
responsibility, as well, in ODP, and I just met with the 
Director of Citizens Corps last week. So we will be working 
very closely with them.
    Mr. Coble. We have been joined by the other gentleman from 
Florida, the gentleman from Massachusetts, the gentlelady from 
Texas. The gentleman from Massachusetts is recognized for 5 
minutes. I'm growing tired here. The gentleman from Florida, 
Mr. Feeney, is recognized for 5 minutes.
    Mr. Feeney. Thank you, Mr. Chairman, for having what I 
believe is a very important hearing as we start this new 
process of dealing with post-September 11 threats. I really 
want to thank Congressman Sweeney for really taking the lead on 
pointing out a very serious problem in the way we allocate 
funds.
    Respectfully to Director Bishop, much as you said I agree 
with, but I think that the formula that we have now is 
unresponsive and lacks the dynamism that we need to be 
flexible, as you suggested in your comments.
    The truth of the matter is that a threat-based assessment 
makes sense in so many ways, but mostly because of what the 
terrorists are trying to accomplish. It seems to me that it is 
the strategic targets and it is the psychological effect of 
certain targets that is what are leading the terrorists to 
where they ultimately would like to strike.
    Now, obviously, opportunity is something that they have to 
have in order to pull off a successful strike. So, for example, 
if you took a very rigid line, as I think my colleague Mr. 
Weiner suggested earlier, supposing we could draw eight 
perfectly secure urban areas where there was zero terrorist 
threat because we were perfectly capable of stopping it, I 
mean, in a theoretical world anyway, that would do nothing but 
what Director Bishop has said. It would make everybody else 
more vulnerable. So there is a fine balance here to play.
    The population seems to be key, but, you know, Mr. Kelly, 
to the extent that population is the only thing that drives 
this, I would suggest that there are some problems with that. 
The Pentagon wasn't struck because Washington, D.C., is the 
largest population center in the United States. As a matter of 
fact, D.C. itself is less than two-tenths of the United States 
population. And I would suggest the World Trade Center, 
although New York is our largest and most famous city 
nationwide, also had some psychological and strategic reasons. 
The Brooklyn Bridge, obviously tunnels would create a lot of 
chaos. But there are some psychological impacts.
    That leads me as a Floridian to suggest that this urban 
versus rural battle is insufficient to take in all of the 
necessary parts of the equation. We have got more coastline 
than the rest of the Eastern Seaboard put together to defend. 
We have got 14 deep water seaports that have enormous potential 
threats and don't necessarily represent population centers. 
We've got international airports that have record international 
visitors. Miami is the gateway to Latin and South America for 
the United States.
    And we have got theme parks, and thank God that Congressman 
Keller led the way the other day to put Orlando, which is not 
one of the nation's largest cities per capita in terms of 
residency, but a lot of your constituents come join us every 
year and we are glad to have them. We have got international 
tourists that really are beating down a path to our doors 
there.
    I would leave this for you to think about. In a real 
disaster scenario, there are weapons of biological nature that 
have incubation periods of seven to 10 days that are incredibly 
infectious that, with the right threat at, say, Disney World or 
Universal Studios or one of our other great theme parks, or 
many others across the country, but these are the largest, 
actually could transport these infectious diseases all over the 
world by the time we actually discovered there was a threat. So 
there are needs beyond just the population centers, and 
obviously the psychological impact, not just to the United 
States but to the free world, of attacking a place like that.
    The only place to launch East-West satellites to protect 
our national security is at Patrick Air Force Base, as a 
practical matter today. The only place to launch the commercial 
satellites is at the--commercial applications. We wouldn't have 
cell phones in use today. We wouldn't have our Blackberrys. We 
couldn't pull money out of our ATM, let alone all the other 
disasters. And, of course, we've got the NASA center.
    So one of the things I would suggest is that as we go 
through this formula, I really do believe the threat base, 
based on vulnerabilities, based on the impact and consequences, 
are what we need to be driven.
    Ms. Mencer, in my brief time, I've got a question for each 
of you. I understand that the actual threat-based funding is 
set to decline this year by 10 percent while the base funding 
goes up, actually going counter to the problem we are trying to 
resolve?
    Commissioner Kelly, are you getting the immediate 
intelligence information that you need in places like 
Guantanamo and Cuba and elsewhere from the FBI?
    And finally, Mr. Bishop, with all due respect, would you 
address my concern that you've been inconsistent? You talk 
about a proposed formula that will be annually adjusted based 
on risk and threat assessment being too static, but I actually 
think the population formula that you suggest is best and the 
40 percent for the States equally divided is as static as you 
can get and is not flexible enough to meet the needs.
    Thank you. Ms. Mencer?
    Ms. Mencer. Thank you----
    Mr. Coble. I thank the gentleman from Florida.
    The gentleman from Massachusetts now----
    Mr. Feeney. Mr. Chairman, if I could, I actually squeezed 
three questions into the last 30 seconds.
    Mr. Coble. I stand corrected. Mr. Bishop, you may respond. 
He did put the question before the light came on.
    Mr. Bishop. Mr. Chairman, you know, there may be an 
apparent inconsistency, but I don't believe there is. I think 
we need to establish a sound funding level that's relatively 
consistent over time and then--and then do enhancements, 
perhaps annually, taking into account large urban areas, taking 
into account maybe even mid-year events and intelligence.
    The difficulty in making that 0.75 to 0.5 reduction is that 
it tends to depress particularly the preparedness level in 
those more rural States. I would be derelict in my duty if I 
didn't advocate that we keep that higher level of funding 
available.
    Mr. Coble. I thank you, Mr. Bishop.
    Now, finally, the gentleman from Massachusetts is 
recognized for 5 minutes.
    Mr. Feeney. Mr. Chairman, if I can respectfully, I actually 
had a question for Mr. Kelly and Ms. Mencer, too, if it is all 
right.
    Mr. Coble. I'll tell you what. We're going to go a second 
round.
    Mr. Feeney. Okay.
    Mr. Coble. If you would hold for your second round----
    Mr. Feeney. That would be fine.
    Mr. Coble.--and Marty, 5 minutes.
    Mr. Meehan. Thank you, Mr. Chairman. I compliment the 
gentleman from Florida for an excellent 2-minute drill, getting 
in all his questions before the time was off. I hope the New 
England Patriots' 2-minute drill is as effective on Sunday. 
[Laughter.]
    Mr. Coble. And if the gentleman will yield, I am a Patriot 
fan. I've told you that before.
    Mr. Meehan. Which I appreciate that, Mr. Chairman.
    A recent U.S. Conference of Mayors study found that 90 
percent of the cities have not received funds that were 
promised from the Federal Homeland Security Assistance programs 
for localities, and I hear those complaints in Massachusetts 
and I'm interested, first, Commissioner Kelly, have you run 
into this problem yourself, and in your opinion, is this an 
extensive problem?
    Mr. Kelly. It is a bit of an issue. The city has been 
identified as receiving $232 million through the Department of 
Homeland Security. So far, $60 million, according to our 
records, have been received. Now, there is an application 
process, administrative process that we're aware of and I think 
to the credit of the Department of Homeland Security, I know 
there's a lot of effort being given to streamlining that 
process. But there is clearly a lag between, I guess, 
appropriation, you might say, and receipt on the part of 
localities.
    Mr. Meehan. Ms. Mencer, how do we make sure that Federal 
assistance for homeland security actually reaches first 
responders and do you expect that, to the extent that there are 
these funding conflicts to be resolved so that local 
governments can address issues like port security or security 
at nuclear plants, for example?
    Ms. Mencer. Yes, sir. As Commissioner Kelly said, we are 
working very hard to streamline this grant process. We have 
turned funds around quicker than any other time in our nation's 
history. Certainly, it's unprecedented, the speed with which we 
are getting these grants out the door. And we are under 
restrictions that we place on ourselves to turn around the 
applications and the States have also very tight deadlines to 
turn around their applications to us. So I believe a lot of the 
delay comes in waiting for the States to submit their 
applications to us for approval. But we're working very hard at 
doing that with our one-stop shop and our web portal so we're 
working very hard in that regard.
    Mr. Meehan. And have you seen some progress in terms of the 
turnaround being quicker?
    Ms. Mencer. Yes.
    Mr. Meehan. Is there any evidence to suggest that you're 
getting that down?
    Ms. Mencer. Yes, absolutely, sir, and I think----
    Mr. Meehan. Or that States are.
    Ms. Mencer.--I think we're getting better all the time. The 
States are getting better with the grant process, as well, 
because they have organized their regions, a lot of the States 
have, and now have a mechanism in place to respond more quickly 
to our grant applications.
    Mr. Meehan. According to a bipartisan task force sponsored 
by the Council on Foreign Relations, the United States is 
still, quote, ``drastically underfunding local emergency 
responders and remains dangerously unprepared to handle an 
attack on American soil, particularly one involving chemical, 
biological, radiological, nuclear, or high-impact conventional 
weapons.'' For example, most fire departments lack equipment 
and personnel to respond to building collapses, let alone major 
catastrophes.
    The task force concluded that America will fall about $98 
billion short of meeting critical first responder needs, and 
then when you look at, or I talked to the cities and towns in 
Massachusetts that I represent, it appears to me that we 
actually have fewer cops and fire fighters on the street than 
we did before September 11. I'm trying to determine whether 
that's so or not. I guess, Commissioner, I would ask you, are 
there fewer police officers on the streets in your----
    Mr. Kelly. We have 4,000 fewer officers than we had in 
October of 2000. So, obviously, that's over a 10-percent 
reduction for New York City Police Department.
    Mr. Meehan. So presumably, the same is true with fire 
fighters. I know I've talked to the head of local fire fighters 
or the head of unions in Massachusetts and other parts of the 
country and they seem to be in the same position.
    I guess, Ms. Mencer, the question would be how are we going 
to get to a point where we're actually--if we don't even have 
the--if we have fewer personnel than we did in first 
responders, police and fire, around the country than we did on 
September 11, 2001, how are we going to make up this gap? 
Because it seems to me that we're asking them to do so much 
more and most departments in the country have fewer people.
    Ms. Mencer. Sir, we do have some allowances in our grant 
programs to fund overtime expenses for police officers and 
first responders, so that should help considerably. I have a 
vested interest in Massachusetts since my daughter goes to 
school there, so I want to make sure you're safe and your State 
is safe. But I think we do have some ways to address the 
shortfall that may or may not be out there with the law 
enforcement communities.
    Mr. Meehan. Thank you. Thanks, Mr. Chairman.
    Mr. Coble. I thank the gentleman.
    The gentleman from Florida is recognized for 5 minutes.
    Mr. Keller. Thank you, Mr. Chairman. I want to begin, 
Director Mencer, by just offering my unqualified, unmitigated 
praise in support of the Department of Homeland Security for 
adding the Orlando area to the Urban Area Security Initiative, 
and I would like to just briefly address why I think that is 
important, because two of our witnesses, I know Commissioner 
Kelly and Mr. Bishop, have said something that could be implied 
to be a little critical, that adding too many cities has 
watered this down.
    But I have a city. The greater Orlando area only has about 
a million people, but we are the world's number one vacation 
destination, with 43 million tourists, and you have al Qaeda 
documents found in terrorist training camps in Afghanistan 
specifically identifying these critical infrastructures in 
Orlando as being a target that they would be likely to hit, and 
that is very expensive, when you go from yellow to orange and 
you have terrorist alerts, to protect 43 million people. So I 
think it made sense that it was added and it was a very smart 
move.
    I know that Commissioner Kelly feels like New York City is 
not getting enough money, and I certainly don't want to quarrel 
with him. I'm someone who has voted to give hundreds of 
millions of dollars to New York and I will continue to be 
supportive of New York. But I would point out, under the list 
of cities from the Urban Area Security Initiative, New York is 
number one in the United States--that just came out last week--
with $47 million. So I don't think they're trying to dis New 
York. I understand that more money could be provided, but 
they're still number one there.
    You did say something, Commissioner Kelly, that I found 
very intriguing. You say that the Department of Homeland 
Security should give the money under the high-threat urban 
areas directly to the local governments instead of funneling it 
through the States. That is something I agree with. So let me 
ask you this, as someone who heads a major police department.
    You get the money directly from the Federal Government 
under the COPS program and then, in the alternative, you get 
your homeland security money through the States first. Tell me 
which approach you like better and why.
    Mr. Kelly. Well, first of all, the State takes an 
administrative fee, the money that comes to the city, or----
    Mr. Keller. That's 20 percent, I think.
    Mr. Kelly. Twenty percent.
    Mr. Keller. Right.
    Mr. Kelly. So obviously, it means less money for the 
localities. That's reason one. And, generally speaking, it 
slows it down. There's an administrative lag that has to be 
addressed. I think certainly a city like New York has shown 
that it has the ability to process that money and spend it 
wisely and do it quickly. So that's the reason that we would 
argue for money going directly to localities. We have a good 
relationship with the State, and I understand some money will 
necessarily go to the State, but certainly we think that a 
significant portion of it should go directly to the cities.
    Mr. Keller. Thank you, Commissioner Kelly. I would say also 
to Director Mencer, that's exactly really what I hear from our 
sheriffs and chiefs of police, also. The COPS program is about 
the most popular program I've ever seen because they get it 
directly. There's not the red tape. There's not the 
bureaucratic waste, and it's simplified and quick. And sending 
it through the States is a little bit more cumbersome and they 
take 20 percent off.
    So I would say, as a compromise, one humble suggestion I 
offer is while you may want to continue to funnel the money 
through the States with respect to the population-based formula 
that is used, with each State getting a certain percent and the 
rest population, because after all, you are holding the 
governor accountable for making his State safe, when it comes 
to the money for the high-threat urban areas, I think there is 
some merit to the approach of sending that money directly to 
the individual cities. I know that Orlando has some great ideas 
as to what they want to do with the $8.7 million and they're a 
bit frustrated that the folks in Tallahassee will take 20 
percent off the top and not do much for it.
    What are your thoughts about having some tinkering there 
with respect to the money that's under the high-threat urban 
areas, going directly to the cities as opposed to funneling it 
through the States?
    Ms. Mencer. Well, sir, having been the Director of Homeland 
Security for the State of Colorado and now in my national 
position, I have kind of a unique perspective of it because I 
can see both sides of this issue.
    I think that funneling it through the States or guiding it 
through the States promotes great oversight and a regional 
concept approach by having the State receive it first. The 
States actually don't have to take all 20 percent. They can 
take as much as they feel necessary to administer the cost. You 
have to remember what the State is responsible to do, as well, 
which is to have a State strategy put together. So if we funnel 
money directly to the individual entities, then we kind of lack 
the incentive for a regional approach or to get a State 
strategy together. There's no overriding group that can do 
that. In our area, in Denver, what we did in our urban area is 
we took some of our State money and gave it to the Urban Area 
Initiative, the regional, as well as, the region.
    Mr. Keller. Thank you. I yield back, Mr. Chairman.
    Mr. Coble. I thank the gentleman.
    It appears we have a vote on, but Ms. Jackson Lee, let me 
recognize you for 5 minutes. Then we'll go vote and come back 
because I think we have some more questions. The gentlelady 
from Texas.
    Ms. Jackson Lee. I thank the Chairman very much. First of 
all, let me thank the Chairman and the Ranking Member for a 
very, very important hearing to emphasize the concerns that I 
maintain as a Member of the Homeland Security Committee in 
addition to this Subcommittee of the Judiciary Committee, that 
this question of preparedness is key to, I believe, our 
responsibilities in Government.
    Having just come back from Iraq, I might pose more 
provocative questioning that I would like to take us down the 
pathway of, experts that are here. You come from different 
perspectives. So let me just, as a backdrop to the visit in 
Iraq and the evidence of the continued insurgent actions 
against troops and others, with the backdrop of the series of 
threats and terrorist acts in Turkey as late as just 24 hours 
ago, and what I just glean in terms of what is healthy. It is 
positive that we are going about our business here in the 
United States since 9/11. That's extremely positive, but 
recognizing the horrificness of the tragedy.
    Let me just go directly to the honorable head of the New 
York Police Department, who has had, Mr. Kelly, a wide range of 
experiences and we've worked together in the past. Are we being 
complacent and ineffective, if you will, in dealing with the 
potential soft target threats that we may be facing? Are we 
moving too slowly? Do we need to stop for a moment and get a 
threat assessment not in a year's time, but right now, where we 
finish it in 2 weeks, 4 weeks, because I think we're still 
analyzing or trying to achieve, or maybe haven't gotten there, 
a threat assessment, and how do we do that?
    Mr. Kelly. Well, we receive intelligence information from 
the Federal Government on a steady basis, a daily basis. I 
think the fundamental issue is what we're receiving as a 
nation. So when you say threat assessment, I think the Federal 
Government is doing the best it can and we are doing the best 
we can in New York City to analyze the intelligence that we 
have. But it's still a very difficult process. It's not clear 
what the threats are. Yes, we know chemical, biological, 
certainly conventional means can be used as a weapon, but it's 
very difficult to more specifically define the threats that we 
face.
    In my prepared remarks prior to your arrival, I mentioned 
Iyman Faris, who was clearly an al Qaeda operative who was 
apprehended on March 20 of this year. He had been scouting the 
Brooklyn Bridge and he was deterred because of the uniformed 
presence, the security that we had in place. Now, that's what 
we're doing on the local level. That's what we're doing in New 
York.
    But you say threat assessment. The information or the 
intelligence that is available, I don't think can be more 
finely honed than it is now. We simply don't--we don't have it.
    Ms. Jackson Lee. I thank you. Ms. Mencer, both of the bills 
that have come out of Homeland Security have a threat 
assessment component to it. Where are we in terms of having 
completed anywhere near a threat assessment by the Department 
of Homeland Security, which we spoke to the governor about so 
many weeks ago, if you will--not many weeks ago, many months 
ago. Has the Department of Homeland Security completed its 
threat assessment for the nation?
    Ms. Mencer. Well, certainly that's a little bit out of my 
purview with ODP. We have gotten our matrix together to 
determine our urban area grants, but that's, you know, very 
limited. We're not really privy to the intelligence, all of the 
intelligence behind that matrix. That probably is a question 
more appropriately answered by the Infrastructure Analysis 
and----
    Ms. Jackson Lee. Well, let me do this very quickly, then. 
As you look at our two bills that we have before us, at least 
from Homeland Security, our goal is to look at the threats and 
vulnerabilities that every area faces, including rural areas, 
and the people, and to provide the essential capabilities that 
are needed to meet that threat and protect those 
vulnerabilities. Can you comment on our funding system that we 
may have and can you comment on giving to Citizen Corps, 
community groups, direct funding?
    Mr. Coble. If the lady would suspend, how long will it take 
you to answer that, Ms. Mencer, because we're going to have a 
second round of questions. Sheila, can you come--Ms. Jackson 
Lee----
    Ms. Jackson Lee. If she could just do it very quickly----
    Mr. Coble. Very quickly, Ms. Mencer.
    Ms. Mencer. Okay. We are requesting each State to do a 
threat assessment and a strategy, which is due to us December 
31, which will give us a much more comprehensive view of the 
States' vulnerabilities and what they perceive their threats to 
be. So that should be very helpful.
    Ms. Jackson Lee. And Citizen Corps direct funding?
    Ms. Mencer. Citizens Corps, I am working with Citizens 
Corps. I had a meeting with the Director last week and we have 
just received that program, so we'll be working very closely 
with them.
    Ms. Jackson Lee. I'd like to work with you and meet with 
you on that, please. Thank you.
    Ms. Mencer. I would appreciate that.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Jackson Lee follows in the 
Appendix]
    Mr. Coble. Folks, I hate to do this to you, but----
    Mr. Scott. Mr. Chairman, could we recognize Mr. Weiner? We 
have a couple of minutes----
    Mr. Coble. Mr. Weiner, if you could do it real fast, we 
can----
    Mr. Weiner. Yes. I will take less than just a minute or 
two. I just want to clear up a couple of quick things that have 
emerged.
    First of all, a couple of members of the panel here have 
made reference to it and Mr. Bishop did. We have to draw a 
distinction between the hypothetical what if, could be, 
possibly, and what is actually going on today in New York City, 
what's actually going on in Washington, D.C., what's actually 
being reported in the intelligence chatter. It is no dispute 
that the shoreline of Florida or a hospital in Boise could be 
under risk. No doubt about that. The fact is, though, that New 
York City is.
    And let's make it very clear what we're talking about here. 
Two-point-two billion dollars went into the general fund to 
fund the general threats. This was a specific program set up 
for high-threat--high-threat--high-density areas, of which 
$7.25 billion--$725 million is gone. And the issue here, Ms. 
Mencer, and to my colleagues, as well, is you add city, add 
city, add city, add city, add city, you are having the effect 
of taking away from the top, taking away from the top, taking 
away from the top.
    So I have two very quick questions. One, are you done 
adding cities? Is Fresno enough of a high-threat, high-density 
area to be lumped in with New York City? Is San Antonio? I 
mean, at what point will you stop adding cities? Are you done?
    Mr. Coble. If the gentleman would suspend, Mr. Weiner, let 
them think about that. Can you come back for the second round, 
Mr. Weiner?
    Mr. Weiner. I've got nothing but time, Mr. Chairman.
    Mr. Coble. Folks, why don't you all get a cup of coffee and 
a sandwich. I hate to do this irregularly, but there are a 
couple more questions I want to put to you, too. We should be 
back in about 35 minutes. So you all stand easy in the 
meantime.
    [Recess.]
    Mr. Coble. We will resume our hearing now. Our witnesses 
are still around. Mr. Weiner, you have three-and-a-half minutes 
remaining.
    Mr. Weiner. Thank you, Mr. Chairman. When we had left, I 
had posed a question as to how big the list of urban areas 
security initiatives, States, how big of a list of high-threat, 
high-density urban area grant-eligible areas there would be, 
and the reason I was asking that is every time you add one, you 
take away money from New York City. Every time you add one, you 
take away money from the original seven. You are, by doing each 
additional State, taking away from the top. And so my question 
was, are you done adding cities?
    Ms. Mencer. Well, sir, I think that's a difficult question 
to answer. I think it will continue to change as we continue to 
look at the threats that are out there and the vulnerabilities 
that exist. So will it stay at 50? I really don't know. It may 
expand. It may get less. I don't know yet. We'll have to assess 
each time we have money to award.
    Mr. Weiner. I would point out to you that it's going to be 
very difficult politically and, frankly, substantively to take 
a city off this list because you are then tacitly saying that 
the risk is now lowered to the point it no longer falls into 
this high-threat, high-density, and I think that that is a 
consideration that hasn't been fully thought through by your 
office. When you add Fresno, it becomes very difficult next 
year to take Fresno off. And so your answer is, this thing 
could--you could add another 20 cities next year.
    Ms. Mencer. Mr. Chairman, I think it--I don't know. I mean, 
we're going to get these strategies and assessments from the 
States at the end of this year and we will look at those and 
that will give a good indication to us where the 
vulnerabilities still remain, where the needs still exist, and 
that's a needs assessment, as well, so----
    Mr. Weiner. Well, let me ask you about the formula that's 
written into the law by Congress. The Secretary shall take into 
consideration credible threat--and by the way, this order was 
not random, this was the intent of Congress to order it in this 
way--take into consideration credible threat, presence of 
critical infrastructure, population, vulnerability, 
cooperation, and multiple jurisdictions.
    Can you tell me--it has been reported that population is 
weighted by a factor of nine, infrastructure is weighted by a 
factor of six, credible threat is weighted by a factor of 
three. Can you confirm that?
    Ms. Mencer. I believe that's correct.
    Mr. Weiner. Can you explain to me how credible threat, 
meaning a reason that the gentleman to your left, the two 
gentlemen to your left, have reason to believe that there is 
going to be a threat to their locality, is weighted less than, 
say, population?
    Ms. Mencer. Well, I think it's all part of the mix and I 
think----
    Mr. Weiner. I'm not saying it's not. I'm saying, how come 
you and your office, when deciding how dollars will be 
distributed, weight the credible threat, the likelihood that al 
Qaeda is going to try to blow up a bridge, a tunnel, a 
building, is weighted less than population?
    Ms. Mencer. I think because threat is a fluid thing and we 
can't--it's difficult to assess, if you say you have a threat 
against one facility, what the level of threat is on that, and 
we don't, in the Office for Domestic Preparedness, we don't 
have the raw intelligence data to determine that.
    Mr. Weiner. But the whole purpose of this element of the 
grant, the high-threat, high-density urban area grant, if you 
don't have the wherewithal to determine the threat part of that 
grant, then, madam, perhaps you're the wrong person to be 
distributing it, because I certainly know the gentleman to your 
left has that data.
    Ms. Mencer. I think, sir, that even though we have threats 
that are audible threats, or visible threats, or identifiable 
threats, we in no way as a Government, in the intelligence 
community or in the law enforcement community, can say 
definitively that we know all the threats out there. We will 
never know all the threats.
    Mr. Weiner. I don't think I've asked you, madam, to 
identify all the threats out there. I'm asking you how you 
allocate funds that are to be used for high-threat, high-
density areas. And if you're saying that you don't have the 
ability to weigh it sufficiently, so you put it lower on the 
list, I can tell you that there's someone sitting at your table 
who does, who can take you into a quiet room right now and tell 
you about them, and that's the purpose of this grant.
    If you don't have the ability to assess that, then frankly, 
madam, I think we should give the authority to someone who has 
that ability, and there are people in this country who can tell 
you that the threat to New York City today is exponentially 
higher than the threat to, say, Boise.
    Ms. Mencer. Well, sir, I'm not sure that we know where all 
the threats are.
    Mr. Weiner. Madam, I'm not asking you to identify what all 
the threats are.
    Ms. Mencer. But you----
    Mr. Weiner. I just want to make that clear. But your job is 
trying to give out the high-threat, high-density urban area 
grant is based first and foremost on high threat, and we have 
had hearing upon hearing upon hearing about improving our 
intelligence gathering to the point now that we do know where 
the high-threat areas are. We do know that. I mean, I can tell 
you where they are, and this isn't violating any State secret. 
Wall Street, high threat area. U.N., high threat area. Brooklyn 
Bridge, high threat area. These are them. I can keep listing 
them for you and I can help you do your formula. But by 
weighting threat lower than, say, population, you are simply 
not doing the job that Congress intended when they set up these 
grants.
    Mr. Coble. Your time has expired, Mr. Weiner.
    Mr. Weiner. Thank you, Mr. Chairman.
    Mr. Coble. Again, folks, I apologize to you. Mr. Weiner, do 
you want--Ms. Mencer, do you want to correspond by mail in 
response by writing Mr. Weiner and to further extend your 
questioning to the Director?
    Mr. Weiner. I think it actually might be much more 
productive for Commissioner Kelly to be corresponding with the 
Director because he apparently has the information necessary 
for her to make these grants----
    Mr. Coble. Well, perhaps they can get together.
    I again apologize to the witnesses for keeping you all 
here, but we can't control the voting and this is too important 
an issue, it seems to me, to give it short shrift.
    Let me put a question--well, strike that. I have a question 
for Mr. Feeney and a question for Mr. Scott. Let me put this 
question to you, Ms. Mencer, and maybe we've touched on this, 
but what steps are the Department of Homeland Security and the 
Office for Domestic Preparedness taking to assess the nation's 
emergency response capabilities and what guidance is DHS 
providing States and locals in assessing their own needs?
    Ms. Mencer. Yes, Mr. Chairman. As I've mentioned earlier, 
we are requesting the States to do a State homeland security 
assessment and a strategy, which is due to us December 31, and 
they are required to look at all their needs, their gaps, their 
vulnerabilities, what kind of equipment, training, what kind of 
resources do they presently have and what do they need. So we 
are waiting for that. We did a previous assessment back in 
1999, so we have a baseline, and this will now give us a more 
current, up-to-date view of what their needs are.
    Mr. Coble. Now, this is from Mr. Feeney, the gentleman from 
Florida, and Commissioner Kelly, I think it was directed to 
you. Let me reiterate the question. What are the concerns about 
the Congress using the grant program for pork barreling on the 
one hand, and on the other hand, because the formula is 
intelligence driven in part, the program not being accountable 
and responsive to the public? I think that was the question 
that he ended on when his time expired.
    Mr. Kelly. Mr. Chairman, I believe he did ask a question 
concerning intelligence information that we're gathering. Is 
there sharing of information among the Federal agencies, at 
least in New York City? He mentioned whether or not we were 
getting information from Guantanamo Bay, for instance, and I 
would submit to that question the answer in response to that, 
yes, we are.
    There is much more effective sharing of information, 
intelligence information, now. We, in fact, have 121 
investigators working with the FBI and other agencies in our 
Joint Terrorist Task Force, and indeed, our investigators have 
been to Guantanamo Bay, have been to Afghanistan, and I think 
we're working closely with our Federal partners and we are 
sharing intelligence information.
    That was the question that Mr. Feeney asked. He had three 
questions that he put out in the last 30 seconds of his time.
    Mr. Coble. And I think two of them were answered and then 
the red light was illuminating in our eyes----
    Mr. Kelly. Yes, sir.
    Mr. Coble.--so I cut him off and didn't mean to do that.
    Now, this is Mr. Scott's question. Some of the bills 
propose modifying the threat advisory system--now I presume 
that's the color coding system--by shifting to a regional or 
economic sector focus. Do you agree with these proposals? Why 
or why not? And either of the three or all three of you can 
answer. Why don't I start with you, Ms. Mencer.
    Ms. Mencer. Yes, sir. I think there is that flexibility now 
within the threat advisory system that it could be done on a 
regional basis, if necessary. So I think that flexibility 
currently exists.
    Mr. Coble. Mr. Kelly, do you or Mr. Bishop want to weigh in 
on this?
    Mr. Kelly. I haven't seen it done on a regional basis, but 
it makes sense to me. Obviously, you know, there are very few 
threats that would impact on the entire country. So it seems 
reasonable to have a regional or perhaps a sector-based warning 
system. So I would agree with that.
    Mr. Coble. Mr. Bishop?
    Mr. Bishop. Mr. Chairman, what we're developing in Idaho 
through some ODP-funded exercises is a system whereby our local 
emergency planning committees will meet and specific sectors, 
and law enforcement being a principal one, will meet at the 
time the Federal Government changes the threat level, and then 
through that meeting, decide, based on the intel as we 
understand it that led to the Federal change, we will decide on 
local and regional actions that are specific to the cause of 
the threat level being raised. So in a strong sense, we're 
regionalizing in Idaho and we're not, of course, not changing 
the Federal color, but we're reacting to the Federal color in 
shades, if you will.
    Mr. Coble. Thank you.
    Bobby, do you have any questions?
    Mr. Scott. I understand the question I had has just been 
asked, and I appreciate the response.
    Mr. Coble. Again, I thank you all for being here. 
Commissioner Kelly--oh, do you want one more, Mr. Weiner? Okay.
    Mr. Weiner. A brief follow-up directed to Commissioner 
Kelly. Commissioner Kelly, is part of the problem here 
something that Congress created? Let me read again the language 
that we included in the conference report on how this money is 
to be distributed. Quote, ``The Secretary shall take into 
consideration credible threat, presence of critical 
infrastructure, population, vulnerability, cooperation of 
multiple agencies, of multiple jurisdictions preparing domestic 
preparedness plan,'' and let me just stop there.
    Is the fact that our police department is such an 
extraordinary one and that we have invested so much and we have 
hired so many, and frankly done an extraordinary job beyond, 
frankly, many of the Government agencies, is it your view in 
watching this process as a participant that, in fact, it is the 
very fact that the city police department has done a good job 
that is now being scored against them and the very fact that 
other police departments perhaps are not up to snuff and, 
therefore, have greater vulnerabilities that they are now kind 
of leapfrogging ahead in terms of the Federal dollars they are 
getting from this limited fund?
    Mr. Kelly. I don't--or at least I hope that's not the case. 
I don't believe that's the case. I think, having spent four and 
a half years here in Washington, I understand that there is 
this desire to share the wealth, you might say, to make certain 
that everybody gets something good for their districts. I think 
what's different now is the post-9/11 world that we find 
ourselves in. You would hope that in this area of securing the 
country that it wouldn't be business as usual.
    What we are proposing here in these pieces of legislation 
makes eminent common sense to me. All it says is--that is 
legislation, Congressman Sweeney's legislation and the two 
others, as well--is that you take the preponderance of your 
resources and you distribute it based on the threat that we 
face. You now have a situation where only roughly 20 percent of 
the resources dedicated to protecting the country, roughly $3.5 
billion each year, is being distributed based on threat, and we 
can talk about how you do that analysis.
    It just is common sense that you would, in my judgment, 
anyway, shift the preponderance of those resources to be 
distributed based on threat analysis. That's not what it is 
now. Eighty percent of it, or roughly 80 percent, is 
distributed based on population or based on each State gets the 
same amount, and to me that's illogical.
    Mr. Weiner. And I just want to reiterate the history here, 
because, in fact, Mr. Bishop and other members of the panel 
have alluded to the general need. The history of this was the 
block grant formula that was originally conceived, that it was 
based essentially on a per capita formula. It was widely 
criticized. Even Secretary Ridge said it was flawed, it was 
fatally flawed.
    And Congress, and the Secretary and the President of the 
United States, came back with this proposal to create this fund 
of money that was based on threat, just as Commissioner Kelly 
just said, and what we are essentially doing is transforming 
that element of the funding that was supposed to be targeted 
toward threat, putting aside the other fund, which continues to 
exist, the funding that's supposed to be targeted toward 
threat, and we are now transforming it into another generalist 
pot of funds.
    I just want to remind you, Ms. Mencer, that the reason this 
fund was created is not to do those other things, to do exactly 
the thing you said you're having a tough time getting your 
hands on. That's the purpose of the fund. It is to--it was not 
a mistake that it was called the high-threat, high-density 
urban area grants. And if it's the testimony of the Director 
today that you are unable to get your hand around that threat, 
well, in that case, fundamentally, then this program is not the 
way that Congress designed it. If you're saying we're not 
really good at that so we're going to weigh it a little less, 
that is countervening the intention of Congress when we drafted 
this element of the program.
    And I see that you're shaking your head, but I want to just 
say the testimony you've given today is that you have a lower 
ratio basing the formula on credible threat than you do on 
either population or infrastructure because, in your words, 
it's a fluid thing that you have a difficult time assessing 
from day to day. That, to me, is an argument that if you have a 
difficult time doing it, not to weight it less, develop a 
better way to do it better.
    Weighting it less was not an option Congress intended to 
give you. We said very clearly how we wanted this to be 
assessed, and we said first in the language, first in the name 
of the section that you're administering, threat was supposed 
to be the preponderance of the way that your office distributed 
this money, not third or fourth or fifth. So if you are having 
difficulty, ask this Congress. I am sure we'll give you help. 
Ask the Homeland Security Committee. Ask your boss. We will 
give you help in addressing the threat if it's really so 
difficult. Thank you.
    Mr. Coble. I thank the gentleman.
    Finally, Mr. Kelly, the spokesman for the fire fighters 
asked if I would put this question to you, and I'm reading from 
the question. Your statement regarding the assistance to fire 
fighters grants in your testimony presented before the Select 
Committee on Homeland Security regarding homeland security 
grants has caused concern among fire fighter groups who have 
contacted this Committee. They appear to be concerned with your 
statement that these grants are of little help in HOES areas 
that have significant counterterrorism needs. And from reading 
your testimony, they say, I am not sure what you are suggesting 
be done with these grants, if anything. Can you clarify or 
elaborate on that, Mr. Kelly, for the record?
    Mr. Kelly. Yes, Mr. Chairman. Those grants are capped at 
$750,000 per locality. It doesn't make sense to me to have that 
cap in place for cities such as New York or other major cities. 
My understanding of that piece of legislation says you can't 
get more than $750,000 per city. So my suggestion was that that 
cap be eliminated. New York--the Fire Department of New York 
City has 13,000 employees, has a budget of probably $1.5 
billion. So, clearly, $750,000 is not going to make significant 
impact on their budget, not going to help them very much.
    Mr. Coble. Folks, again, we thank you all for being here. I 
apologize again for the delay, but as I say, we can't control 
the voting on the floor.
    Let me conclude with this. I revisit something Mr. Bishop, 
Director Bishop said, and granted, folks, we're still a work in 
progress. I mean, who would have anticipated 9/11? I think on 
balance, we're doing a good job. But you said, Mr. Bishop, and 
I'm inclined to concur, that when we emphasize or concentrate 
our focus in one area, that inevitably may cause other areas to 
be more vulnerable. And I realize this is a balancing act with 
which we're dealing, but I want you all to keep that in mind as 
you go about your day to day work.
    I thank you again for your testimony and your presence 
here. This concludes the legislative oversight hearing on 
``Homeland Security: The Balance Between Crisis and Consequence 
Management Through Training and Assistance, Review of 
Legislative Proposals.'' The record will remain open for 1 
week. So if you all want to come forward with something you 
think about that you failed to say today, or if we, in turn, 
think of something we failed to mention, we can come--we have a 
week's time in which to tread water.
    Thank you again, and the Subcommittee stands adjourned.
    [Whereupon, at 12:04 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

          Prepared Statement of Representative Adam B. Schiff

    Chairman Coble and Ranking Member Scott, thank you for holding this 
hearing today on an extremely important issue facing our country as we 
work to prevent and best prepare to respond to future terrorist attacks 
in our local communities.
    Earlier this month, the Department of Homeland Security announced 
their FY04 homeland security grant funding distribution--and once 
again, the Department's formula has failed the most vulnerable 
communities in our country.
    The current formula used to allocate funding to states and 
localities through the State Homeland Security Grant Program continues 
to give states with smaller populations more money per person than 
states with larger populations. This leads to the reality of Wyoming 
receiving $35.31 in per capita funding as compared to merely $4.68 in 
per capita funding for my home state of California.
    The Department has acknowledged that this formula has serious 
shortcomings, but changes have not been made. The Urban Areas Security 
Initiative (UASI) was designed to allocate funds in a manner to address 
the security requirements of high density and high threat urban areas, 
as well as to protect critical infrastructure. However, this program 
has failed the highest density and highest threat urban areas as well, 
due to the fact that over 50 localities now compete for this funding 
originally focused at a few major urban high-threat areas.
    It is clear that a new formula is desperately needed, and I am 
pleased that we will be examining three such alternative approaches 
during today's hearing. I am a cosponsor of one such approach, H.R. 
3158, the ``Preparing America to Respond Effectively Act of 2003,'' or 
the ``PREPARE Act'' introduced by Rep. Jim Turner. This piece of 
legislation would create a task force to identify the essential 
capabilities needed by every state and local government and determine 
the extent to which each state or local government has achieved or 
failed to achieve these essential capabilities.
    I believe this approach is more preferable than the static formula-
based approach that has failed those areas that are most at risk. I am 
pleased that the Chairman and Ranking Member of the Select Committee on 
Homeland Security are working together on an approach that will 
incorporate a number of important provisions in the various bills 
before us today.
    Community leaders and disaster preparedness coordinators in my 
district have also expressed concern with the inability to quickly 
access grant funding because of the current practice of distributing 
these funds from the federal government to the states. I urge the 
Department to examine whether this practice needs to be refined or 
changed in order to ensure that we expedite the distribution of these 
crucial funds to our local first responders who need it most.
    Once again, thank you Chairman Coble and Ranking Member Scott for 
holding this important hearing and providing a forum for a closer 
examination of these important legislative proposals.

                              ----------                              

   Prepared Statement of Dr. Joseph P. Indusi, Nonproliferation and 
      National Security Department, Brookhaven National Laboratory

This work was performed under the auspices of the US Department of 
        Energy, Contract No. DE-AC02-98CH10886.

ABSTRACT

    Since the events of 9/11, there have been considerable concerns and 
associated efforts to prevent or respond to acts of terrorism. Very 
often we hear calls to reduce the threat from or correct 
vulnerabilities to various terrorist acts. Others fall victim to 
anxiety over potential scenarios with the gravest of consequences 
involving hundreds of thousands of casualties. The problem is 
complicated by the fact that planners have limited, albeit in some 
cases significant, resources and less than perfect intelligence on 
potential terrorist plans. However, valuable resources must be used 
prudently to reduce the overall risk to the nation.
    A systematic approach to this process of asset allocation is to 
reduce the overall risk and not just an individual element of risk such 
as vulnerabilities. Hence, we define risk as a function of three 
variables: the threat (the likelihood and scenario of the terrorist 
act), the vulnerability (the vulnerability of potential targets to the 
threat), and the consequences (health and safety, economic, etc.) 
resulting from a successful terrorist scenario.
    Both the vulnerability and consequences from a postulated adversary 
scenario can be reasonably well estimated. However, the threat 
likelihood and scenarios are much more difficult to estimate. A 
possible path forward is to develop scenarios for each potential target 
in question using experts from many disciplines. This should yield a 
finite but large number of target-scenario pairs. The vulnerabilities 
and consequences for each are estimated and then ranked relative to one 
another. The resulting relative risk ranking will have targets near the 
top of the ranking for which the threat is estimated to be more likely, 
the vulnerability greatest, and the consequences the most grave. In the 
absence of perfect intelligence, this may be the best we can do.

RISK CONCEPT

    The concept of risk has different meanings depending on the context 
and individual. Here we use a logical or systematic definition based on 
the mathematical construction used in nuclear reactor safety and other 
physical systems. In this context, the risk is generally defined as

      (1) R = P x C,

where P = probability that a system failure occurs and C is an estimate 
of the consequences resulting from the system failure. The analyses of 
the various failure events and consequences associated with nuclear 
power reactors have been extensively studied and delineated.
    In an effort to introduce the concept of risk to the design of 
nuclear materials safeguards systems, there evolved the formulation 
known as the Societal Risk Approach to Safeguards.\1\ In this 
formulation, the safeguards risk is approximated by an equation of the 
form:
---------------------------------------------------------------------------
    \1\ ``Societal Risk Approach to Safeguards Design and Evaluation,'' 
C. A. Bennett, W. M. Murphy, and T. S. Sherr, ERDA-7, 1975.

---------------------------------------------------------------------------
      (2) R = Pa x (1-Pi) x C,

where Pa = probability that a person or group attempts an adversary 
action, Pi is the probability of adversary interruption (by the 
safeguards system), and C is an estimate of the consequences from the 
action. The implementation of this societal risk approach is 
problematic because of the difficulty in estimating the probability of 
attempt Pa. The situation for estimating the probability of 
interruption Pi and the consequences C is somewhat more amenable to 
analysis. Indeed, there has been significant progress in analyzing and 
quantifying both of these factors, at least in the case of nuclear 
facilities safeguards analysis. To cope with the difficulty in 
determining Pa and in an attempt to develop a useful formulation for 
protective system planning, we may use a less formal mathematical 
version of equation (2). In equation (2), we may think of Pa as the 
threat, that is, the element controlled by the adversary or terrorist 
group. The factor (1-Pi), the probability that the adversary is not 
interrupted, is analogous to the vulnerability (to the potential 
threat) of the protective system. Just as in equation (2), the 
consequences must also be considered. With these concepts, we now 
define risk as:

      (3) R = Threat x Vulnerability x Consequences

which is estimated for each threat scenario at a given facility. A risk 
value for each threat scenario at a given facility may be analyzed to 
give a set of risk values for the given facility. Now these risk values 
may be ranked, relative to one another, from the highest to the lowest. 
Since there is no certainty or mathematical accuracy in developing the 
probability of attempt or threat, the risk values so derived are 
necessarily relative to each other.

RISK CONCEPT ATTRIBUTES

    In the weeks and months following the attacks of 9/11, there were 
many calls for vulnerability, threat and risk assessments. Often, these 
terms were used with no standard or agreed meaning for each. In the 
risk formulation of equation (3), it is clear that each element has a 
meaning and the relationship between them is consistent and systematic. 
For example, using equation (3), a high risk implies a very plausible 
adversary scenario (threat), a target which is very vulnerable to the 
threat, and a severe set of consequences will occur if the threat is 
carried out. It should follow easily that upgrades or security plans 
should be based on risk and not on one or two of the elements of risk 
alone. Clearly, basing security upgrades on say vulnerability alone 
does not optimize the use of resources.
    Unfortunately, upgrades in facility security were often based on 
vulnerabilities alone. Similarly, the general public tends to focus on 
high consequence events, even when other elements of the risk are low. 
The National Strategy for Homeland Security in its' July 22, 2002 
report stated ``Accordingly, the federal government will apply a 
consistent methodology to focus its efforts on the highest 
priorities.'' \2\ In practice, a relative value, such as low, medium or 
high, can be assigned to the threat, vulnerability and consequences for 
each threat scenario. As in the case with equation (2), given a threat 
scenario at a given facility, we are capable of assigning relative 
vulnerability, and consequence values. In utilizing equation (3), the 
difficulty again lies in the threat element. Of course, with perfect 
intelligence, the threat can be neutralized before the adversary acts. 
However, in the absence of reliable threat intelligence, we must act 
prudently to use resources for the highest risk scenarios and targets.
---------------------------------------------------------------------------
    \2\ National Strategy for Homeland Security, Office of Homeland 
Security, July 2002.
---------------------------------------------------------------------------
    To proceed, it is necessary to delineate the full spectrum of 
potential threats against a given target or facility. For purposes of 
homeland security, these targets are largely the elements of the 
critical infrastructure such as transportation (bridges, tunnels, 
aircraft), energy (pipelines, power lines, etc.), finance and banking 
and the others. Developing these threat scenarios requires that we 
focus on the future, integrating and analyzing available intelligence, 
and thinking in the ways an adversary thinks. This is part of the 
message given by Col. Randall J. Larsen, (USAF-Ret.), Director of the 
ANSER Institute for Homeland Security in his statement for the National 
Commission on Terrorist Attacks Upon the United States.\3\ Similarly, 
the National Strategy also states ``Mapping terrorist threats . . . 
against specific facility sectoral vulnerabilities will allow 
authorities to determine . . . which facilities and sectors are most at 
risk''. The process of developing the threat scenarios will require 
participants from many disciplines and experiences, including 
historians, intelligence specialists, technical experts, and including 
military and law enforcement organizations. Once this formidable task 
is completed, the development of a relative risk ranking may proceed.
---------------------------------------------------------------------------
    \3\ Col. Randall J. Larsen, (USAF-Ret.) Director, ANSER Institute 
for Homeland Security, Statement for National Commission on Terrorist 
Attacks Upon the United States,April 1, 2003.
---------------------------------------------------------------------------

IMPLEMENTATION

    Constructing a relative risk ranking begins with the list of threat 
scenarios against targets or facilities. Presumably this list may be 
small or large, but countable in number. While there is no guarantee of 
completeness, the mere act of developing threat scenarios is 
instructive in itself and provides insight into potential future 
threats. For each threat scenario, the vulnerability and consequences 
are then estimated. Fortunately, there are mathematical models to 
analyze both, developed in the nuclear safety and safeguards community 
and the military operation research community. These estimates may be 
qualitative such as low, medium or high. The exact values are not 
important for purposes of this analysis.
    The risk values are then determined and ranked from the highest to 
the lowest producing a relative risk ranking. Obviously, resources 
should be used to reduce the vulnerabilities or mitigate the 
consequences from the highest ranked threat scenarios first. In the 
National Strategy for Homeland Security, it is stated ``Protecting 
America's critical infrastructures thus require that we determine the 
highest risks . . .''
    In planning security upgrades at Brookhaven National Laboratory, a 
select committee was established and this relative risk ranking concept 
was used for ordering the upgrade schedule.

CONCLUSION

    The relative risk assessment concept or approach for protection 
system planning provides a framework for systematically allocating 
resources. It avoids the tendency to focus only on one element of risk 
such as vulnerability. It also forces planners and protection managers 
to look to the future and identify potential threat scenarios. Given 
the current global threat of terrorism, we cannot continue the methods 
of the past or follow the path of business as usual.

                              ----------                              

    Questions for Director Mencer for the November 20, 2003 hearing.

    1)   How effective has ODP been in supporting you in development 
and implementation of your homeland security program?

    2)   How have you included local jurisdictions in the development 
of your State Strategic Plan for Homeland Security?

    3)   How is the Department currently working to reduce the 
paperwork burden on state and local governments by simplifying and 
streamlining planning, application, reporting, and administrative 
requirements?

    Answer:

    As a result of feedback from our grantees, and to continue to 
improve the nation's ability to prevent, deter, respond to, and recover 
from threats and acts of terrorism, the Office for Domestic 
Preparedness (ODP) combined three programs into a single solicitation 
in Fiscal Year 2004. The following grant programs will be awarded and 
administered in one application: State Homeland Security Program 
(SHSP), Law Enforcement Terrorism Prevention Program (LETPP), and 
Citizen Corps Program (CCP). These three programs will be administered 
under a single application called the Homeland Security Grant Program.
    This consolidation was done to streamline the grant application 
process and better coordinate Federal, State, and local grant funding 
distribution and operations. The homeland security assessments and 
strategies currently being finalized by the 50 States, the District of 
Columbia, the Commonwealth of Puerto Rico, U.S. territories, and 
selected urban areas for submission to ODP will play a pivotal role in 
the identification, prioritization, and allocation of financial 
resources provided through the three grant programs. The funding 
provided will be applied against critical resource gaps identified 
through the assessments and prioritized in the State strategies. 
Providing funds through a single application and award process 
facilitates coordination of preparedness activities related to the 
goals and objectives identified in the State strategies, resulting in a 
more effective and efficient use of funding. A single application also 
minimizes time spent on the application process and consolidates 
reporting requirements.
    The three programs further provide the opportunity to enhance 
regional preparedness efforts. ODP is strongly encouraging States to 
employ regional approaches to planning and preparedness and to adopt 
regional response structures whenever appropriate to meet the needs 
identified through the assessments and in the State's strategy. 
Furthermore, it is DHS' intent to steer State and local security and 
preparedness efforts toward a project-oriented process to address 
common, measurable objectives. Security and preparedness officials at 
all levels should seek opportunities to leverage funding from multiple 
sources whenever possible and not restrict their activities to Federal 
funding alone.

    4)   What specific steps would you take to establish consistency 
across federal grant programs, especially those programs administered 
by different agencies/offices, to make it easier for states, 
communities, and first responders to apply for homeland security 
grants?

    Answer:

    The Department of Homeland Security (DHS) has developed a Website--
http://www.dhs.gov/dhspublic/display?content=2155--that contains 
information on all DHS first responder and training grants. In an 
effort to assist the emergency response community, this Website also 
provides information on homeland security and public safety grant 
opportunities offered by other Federal agencies. This site was 
developed by DHS, working in conjunction and cooperation with our 
Federal partners, to simplify access to these grants by placing 
information in a single, easily accessible site. Critical State and 
local missions supported through these grants include the preparedness 
of first responders and citizens, public health, infrastructure 
security, and other public safety activities. While these programs vary 
considerably in their size and scope, they all contribute to making our 
nation more secure against the threat of terrorism, as well as other 
natural and man-made hazards.
    In addition to grant opportunities, this Website contains a link to 
the Compendium of Federal Terrorism Training for State and local 
audiences, a database of the terrorism-related training offered by 
Federal departments and agencies that is available to State and local 
emergency personnel. It is designed as a resource for State, local and 
tribal officials and especially for those responsible for arranging 
training for emergency personnel. The Compendium includes details such 
as course objectives, intended audience, how the training is delivered 
(in the field, at a training center, by distance learning), and how to 
enroll students or arrange for the training to be delivered in a 
particular jurisdiction. Users can search for courses based on the 
course title and sponsoring agency, but they can also find very 
specific courses by entering the desired training topic or other 
criteria on a special search page.
    Additionally, ODP organized the Training Resources and Data 
Exchange (TRADE) Group, consisting of Federal interagency partners, to 
address synchronization of training efforts and the need for a 
standardized training curriculum for State and local responders. The 
TRADE Group consists of representatives from a number of Federal 
agencies, including the Department of Health and Human Services, the 
Centers for Disease Control and Prevention, the Environmental 
Protection Agency, the Federal Bureau of Investigation, the United 
States Fire Administration, and the Department of Energy.

    5)   The House Intelligence bill will authorize the Department of 
Homeland Security to provide training for first responder managers for 
``identifying sources of potential terrorist threats'' and improving 
information sharing. Would the Office of Domestic Preparedness handle 
this training? Do you provide any such training now?

    Answer:

    ODP currently provides a wide-range of awareness level training 
courses through the National Domestic Preparedness Consortium (NDPC). 
As you know, the NDPC includes ODP's Center for Domestic Preparedness 
in Anniston, Alabama, the New Mexico Institute of Mining and 
Technology, Louisiana State University, Texas A&M University, and the 
Department of Energy's Nevada Test Site. ODP also works with a number 
of other training partners to provide training to the Nation's 
emergency prevention and response community.
    Through the NDPC and our other training partners, ODP provides more 
than 30 direct training and technical assistance courses and programs 
to state and local jurisdictions. This includes training delivered in 
residence at ODP training facilities, on-site in local communities 
through mobile training teams, and through such electronic means as the 
Internet, closed circuit broadcasts, and video-conferencing. ODP 
training is tailored for a wide range of emergency responders, 
including courses for fire and rescue personnel, law enforcement 
officers, public works and public safety communications officials, 
emergency medical personnel, and many other disciplines. It also 
addresses a range of emergency response levels available to State and 
local emergency responders--awareness, performance, planning, and 
management.

    6)   H.R. 3158, the ``PREPARE Act,'' introduced on September 24, 
2003, by Mr. Jim Turner D-TX, has listed as one of its findings that a 
lack of national standards and an absence of functioning methodology 
makes it impossible to determine how prepared a state or local 
government is and how prepared they need to be. Do you agree? How does 
ODP determine what the states need?

    Answer:

    ODP has implemented and continues to develop additional standards 
and guidelines for the equipment, training, and exercise support funded 
through its grants. These standards and guidelines have been and are 
being developed collaboratively with subject matter experts within ODP, 
other Federal agencies and the State and local emergency response 
community. They are intended to ensure that an appropriate preparedness 
baseline is achieved nationally for response to incidents of terrorism 
involving weapons of mass destruction. Compliance with many of these 
guidelines and standards is achieved by tying receipt of grant funds to 
their acceptance. For example, in an effort to improve emergency 
preparedness and response interoperability, all new or upgraded radio 
systems and new radio equipment purchased with Fiscal Year 2004 
Homeland Security Grant Program funds should be compatible with a suite 
of standards called ANSI/TIA/EIAA-102 Phase I (Project 25). These 
standards have been developed to allow for backward compatibility with 
existing digital and analog systems and provide for interoperability in 
future systems.
    Also, ODP sponsors and is active in the Interagency Board (IAB) for 
Equipment Standardization and Interoperability. The IAB is comprised 
primarily of local responders, but is also represented by State and 
Federal officials. ODP has used the standardized equipment lists 
developed through the IAB as the basis for the equipment it allows 
grantees to purchase through its grant programs. The IAB has also taken 
an active role in supporting the development and implementation of 
federal equipment and operational standards.
    In a related effort, ODP has developed a methodology and guidance 
for the evaluation of performance-based exercises, which are described 
in Homeland Security Exercise and Evaluation Program (HSEEP), Volume 
II: Exercise Evaluation and Improvement. The exercise evaluation 
methodology outlined in HSEEP Volume II is designed to enhance the 
quality and usefulness of homeland security exercises by evaluating 
performance against standardized criteria, enhancing data analysis, and 
focusing greater attention on implementation of improvements.
    It is a methodology that recognizes that homeland security is a new 
activity for most Federal, State, and local agencies and that 
capabilities will need to be built and enhanced over time. The 
evaluation process recognizes those critical tasks that the exercise 
participants perform well and identifies improvements that need to be 
made. The goal is to improve the overall preparedness of the Nation so 
that all jurisdictions can perform required tasks at least at the 90 
percent level.
    The evaluation guides included in Volume II are an initial effort 
to define expected levels of performance. They build on past experience 
and will continue to be refined. The guides are incomplete at this time 
because they focus on response, with emphasis on a chemical attack. 
Additional evaluation guides are being developed to address prevention 
and deterrence, recovery, and other types of weapons of mass 
destruction. ODP plans to issue subsequent editions of Volume II as 
additional guides are developed and as the evaluation methodology is 
refined.
    Finally, it is a strategic goal of ODP to provide information to 
first responders on best practices. Currently ODP established and 
maintains several programs through which it provides for the sharing 
and dissemination of best practices. Programs to disseminate best 
practices information include training, publications, and Web pages. 
Programs that focus on providing best practices information include the 
previously mentioned HSEEP and ReadyNet. HSEEP establishes a formal 
process for State and local communities to test their practices in a 
terrorism scenario. From this the participants learn what works and 
what does not. The lessons learned or best practices obtained from the 
exercises are incorporated into a web-based system called ReadyNet for 
national on-line distribution to first responders.
    While ODP maintains a number of current efforts to disseminate and 
share best practices information with the field, ODP is simultaneously 
looking prospectively at how to improve and augment these efforts. This 
includes ODP's plan to establish the Homeland Security Best Practices 
(HSBP) program. Under HSBP, ODP will establish a national grant program 
to encourage and support the development of best practices in homeland 
security. Consistent with the mission and goals of DHS, the HSBP 
initiative will provide grant funding to address awareness, prevention, 
preparedness, and response.

    7)   Commissioner Kelly recommends that States and local 
governments should be able to make procurement purchases through the 
Federal contracts already negotiated by the General Services 
Administration. He suggest that this would help ensure interoperability 
of equipment and may produce costs savings. This sound like an good 
idea. Do you agree?

    Answer:

    ODP agrees that State and local governments should be provided the 
opportunity to use the General Services Administration's (GSA) 
purchasing schedule if they so choose. ODP is currently discussing this 
option with GSA to determine how best to accomplish this objective.

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Questions for Director Bishop for the November 20, 2003 hearing.
    1)   Mr. Bishop, after reading your prepared statement, I am left 
with an optimistic view of the current state of affairs. Not that you 
do not acknowledge that much work remains to be done, but your remarks 
offer a refreshing glimmer of hope. You state that emergency responders 
on the Federal, state, and local level have training and skills that 
seemed irrelevant 4 years ago. What type of training and skills are you 
alluding to? Do new skills come at the expense of maintaining skills 
that were viewed as critical in the pre 9/11 world? What types of 
equipment do you now have that you would not have dreamed of 4 years 
ago?

    As Idaho began to broaden its weapons of mass destruction 
perspective in 1998, we identified a number of training needs--the most 
basic of which concerned responder awareness. We began revision of 
basic responder curricula to include Chemical Biological Radiological 
Nuclear and Explosives (CBRNE) response and terrorism awareness. We 
also began a round of seminars for elected officials and responder 
leadership. We believe that we've made substantial inroads at the 
awareness level, but continue to work the issues. We've broadly 
developed specific skills concerning incident analysis and size-up for 
both responders and leadership. We evaluate incidents more thoroughly 
these days and in a manner that improves strategy and tactic 
development for all incidents. Idaho responders are acquiring good 
CBRNE recognition skills and understand how to ask for technical help 
as well as additional resources. Our hazmat teams have acquired 
substantial specific skills in mass decontamination and in operation of 
acquired leading edge detection equipment.
    Idaho has had great training experiences with ODP funded facilities 
in Alabama, Nevada, and Socorro. That training is sound, efficient and 
extremely effective. It is particularly valuable to our First Responder 
leadership because of the great peer interaction and nationwide 
connections.
    We do struggle integrating responder CBRNE skills into responder 
training. Our fire and medical responders are about 85% volunteer or 
paid-on-call personnel. Our ability to train CBRNE is limited by our 
need to train to basic skills. We are well underway, however, to use 
non-traditional course deliveries to provide effective training. With 
ODP assistance we are using CD ROM based training for awareness. We 
will be using video conference based training for more advanced 
training. We are designing modularized training so that we can 
capitalize on two-hour presentations during traditional ``training 
nights'' with volunteer departments. We will also continue efforts to 
integrate training into present curricula. Basic level Firefighters, 
EMTs and Firefighters should have CBRNE ``Operations Defensive'' 
competency when they complete their basic training. Almost every skill 
and tactic that they learn can easily be enhanced within the context of 
their basic training. Over the long term, we expect a very limited need 
for ``follow-on'' courses that impart CBRNE skills outside of the 
context of training a responder to do their job.
    In Idaho we are using a lot of leading edge infrared technology to 
deal with unknown substances. We have acquired equipment, through the 
ODP grant process, that allows us to more quickly and precisely 
determine the composition of a variety of solids, liquids and gases on 
scene. In as little as 15 minutes we can get a more definitive 
identification today than we would have been able to obtain with over 
an hour's work four years ago. This class of equipment also requires 
fewer training hours to maintain competence. Tactically it allows us to 
clear a scene for benign substances in a fraction of the time we would 
have required two years ago. For truly threatening substances, we are 
able to focus our strategy and tactics to the particular hazard more 
quickly.
    We've been able to make great advances with our ability to deal 
with suspected and actual explosive devices. The best example is the 
full development of a Bomb Squad in Twin Falls Idaho. The police 
department in that small city had invested the time and money to train 
bomb technicians and had ballistic suits. They lacked a robot, 
disrupters, and other equipment to truly operate as a bomb squad. The 
leader of that unit was sure that it would be years before they had 
full capability. Their ``dream'' happened much more quickly thanks to 
the ODP grant. Their local efforts were enhanced and they have become a 
fully functional Bomb Squad with a number of complex responses to their 
credit including improvised explosive devises.

    2)   It does seem clear that States still need more resources to 
protect against a terrorism attack. While I share your concern that 
providing more assistance to states with higher targets could shift the 
targets to rural states, we cannot ignore the level of risk that New 
York and these other cities face. How can we resolve this issue and 
still protect the other states?

    We need to preserve the current fundamental grant formula. We then 
need to take a discriminating approach with grant enhancements--and 
make some tough decisions with those enhancements--decisions that 
members will often find unpopular. That New York City, for example, is 
an attractive target is reasonable--and the current formula provides 
the greatest amount of financial support to New York State. The concept 
of the ``Urban Areas Security Initiative'' is, I believe, an 
appropriate means of enhancing funding to higher threat Cities. But the 
management of that enhancement has to be based on pretty narrow 
criteria--and not based upon how much pressure is being brought to bear 
upon ODP or Members of Congress. If enhancements apply to every city in 
the country--then it is not an enhancement, but just another part of 
the funding formula. The halving the funding allocation to the states 
in order to fund enhanced programs in just fifty cities smacks of 
indifference to the security for that 51st city as well as all of the 
less urbanized areas of the country.
    Criteria for enhancement should balance risk, threat, vulnerability 
AND local efforts. For example, I vested two new regional response 
teams in Idaho with particular departments and agencies because of what 
they have done on their own--with local funding, effort, and teamwork. 
It is not a ``match'' or a ``reward.'' It is recognition that they took 
preparedness seriously and that we could make a big gain by enhancing 
local efforts.
    I believe homeland security is not just a federal government 
responsibility. The federal support is a grand resource that lets us 
move rapidly ahead. But it is our neighbors that we have to rescue and 
save. The responsibility is shared. Local and state governments are 
providing response personnel, buildings and basic response equipment.
    Having spoken about shared responsibility, please don't interpret 
my remarks as a request for moving to a matching funds environment. The 
administration and management of grants requiring match will reduce the 
usefulness of this effort. Reward effort or provide seed money and 
evaluate results. Don't ask us to implement and monitor matching funds 
or ``in kind'' contributions.
    I will discuss threat and vulnerability assessment management in my 
reply to Question 7.

    3)   You express concern with the notion advocated in H.R. 3158, 
Sec. 1802 (6), that the Federal government should play a predominant 
role in assisting communities in reaching the level of preparedness 
they need to respond to a catastrophic terrorist attack. Have you had 
negative experiences where the Federal government was the lead on any 
matter? What role should the Federal government play and why?

    I will try to be brief, but I may fail. I have had personal 
experience, shared experience and studied events when the federal 
government's need to be the ``lead'' ended in poor outcomes. I hasten 
to add that I have had great experiences with federal, state, local 
partnerships.
    A good incident for all of us to examine and understand is the 
``Ruby Ridge'' event that occurred in Idaho during 1992, prior to my 
moving to the state. I've spent more than a little time studying the 
circumstances because the event has such far-reaching and long lasting 
effects throughout Idaho and the nation. The outcomes were federal and 
civilian deaths, damage to confidence in federal law enforcement from 
which it is still recovering, an intensification of radicalism of the 
extreme and violent right wing throughout the our country, and ongoing 
damage to all the people involved--federal agents and private citizens 
alike.
    The assertion of primacy and predominant role on the part of the 
federal government set events in motion that led directly to the 
outcomes that I've listed. Had the agents formed an effective 
partnership with local law enforcement, there would have been no ``Ruby 
Ridge.'' The person sought by the federal agents would have been 
arrested without incident within a reasonable period of time when he 
came to town to conduct normal business.
    A better outcome occurred in 1996 in Garfield County, Montana when 
local, state, and federal officials managed to arrest radicals after an 
81-day standoff. While there was no question that this was a federal 
case under federal leadership, the federal, state, local partnership 
produced much more desirable results.
    The model we anticipate and which we have used well includes 
appropriate federal, state and local partners. That model does work and 
is the means by which we can ensure a much greater chance of success. 
No federal official can reasonably be expected to have enough intimate 
knowledge of the local influences that shape the environment in which 
we plan for and respond to incidents. No local official can reasonably 
be expected to have broad perspective and specific knowledge of 
external forces acting upon the response environment. While state 
officials do have bridging knowledge between local and federal 
perspectives, state officials often lack the specificity of either.
    So, the role of the federal officials is to advocate and accomplish 
federal and national goals and objectives. The federal officials should 
also bring the appropriate, extraordinary federal resources to bear on 
the problem at hand. If the federal official wants to succeed, however, 
he or she will understand that they will do so not through 
``predominance'' but through partnership. I would object just as 
strenuously to a local official who might assert some sort of 
predominance.
    Asserting predominance just does not work very well. Such efforts 
usually end badly and people are often harmed unnecessarily.
    I have worked with a number of federal Incident Commanders on large 
fires. The best of the Best--Type I team Incident Commanders--work 
extremely hard at not exercising their ``predominance.'' While they 
have overarching authority, their approach is focused upon 
collaborative problem solving.
    In my experience, when federal officials are forced to express 
their ``predominance,'' it is because they have already failed to find 
viable solutions to problems. What follows is inevitably of great 
interest to litigators.

    4)   Calling on your experiences as a former fire chief, what role 
do volunteer fire departments play as first responders to terrorist 
events? Do you believe that the Firefighter Assistance grants programs 
should be included when considering changing first responder grants? 
Please explain why?

    5)   How do volunteer fire departments benefit from grant programs? 
Do they have a role in homeland security?

    I will answer questions 4 and 5 together. In our state, and many 
states, volunteer firefighters are the backbone of response to 
incidents requiring rescue in towns and small cities. It will be they 
who have the greatest potential to limit the loss of life after an 
incident occurs. In many areas, our volunteer firefighters work 
directly with volunteer Emergency Medical Service providers--the two 
are often separate entities within a local jurisdiction. With their 
colleagues in local law enforcement (usually paid, but often with very 
active reserve officer programs), they are the ones that will identify 
the homeland security incident first, have the greatest change to save 
lives, protect property and the environment, as well as preserve 
evidence. In Idaho, they constitute 85% of our ``front'' line. They are 
the men and women who will help us staff the second and third 
operational periods in our major city that have paid departments. They 
are the men and women who will help restore our initial response 
capability, while the affected jurisdictions work large, overwhelming 
incidents.
    When I was a chief in a small rural volunteer department in 
Montana, we provided mutual aid and response resources throughout 
Montana and occasionally adjoining states. We had that capability 
because of support from Montana state government and we had the desire 
to assist because we knew that, sooner or later, we would need the help 
of our neighbors. The smaller department and the volunteer departments 
``cover the backs'' of the larger and paid departments by providing an 
extraordinary pool of human resources for the extraordinary incident.
    In fact, two important components of Idaho's hazardous materials 
response system are volunteer, paid on call departments that host 
hazmat teams. They are trained, effective and of great value to our 
response system. The most complex of their equipment was purchased 
through the ODP grant program.
    I suggested in the past that the ``Fire Grant'' program wasn't 
broken when it was vested with FEMA and didn't really need to be fixed 
by moving it to ODP. I remain concerned that separating the program 
from the U.S. Fire Administration will result in a loss of vigor, 
advocacy, and effectiveness of the program.
    I have great respect for my friends and colleagues in ODP and I 
know they will work extraordinarily hard to make the Fire Grant system 
work. I even have an appreciation of the need to create a one-stop shop 
concept for grants. I still remain nervous, however, about grant 
programs that are not directly administered by an agency populated by 
individuals who have ``been there, done that.''
    I have heard some rumors about eliminating the award cap on 
individual fire grants in a manner that would benefit larger cities. 
The Fire Grant was originally conceived to help fire departments in 
their basic mission. The current cap helps preserve that intended 
purpose, I think, as opposed to becoming just another source of 
homeland security funding. While firefighting capability is important 
to our security, this grant should remain focused upon rescue and 
putting out fires. The program does currently help most those 
departments that have limited revenue resources. I'd like to see that 
maintained. The proposed $2,000,000 cap simply reduces the number of 
departments receiving assistance and therefore reduces the area 
benefited by the grant. We are already emphasizing the largest urban 
areas in the State Homeland Security Grant. The Fire Grant really needs 
to stay focused on helping fire departments with basic capability.
    The 2005 budget proposal that emphasizes Homeland Security in the 
Fire Grant is a great change in the purpose of the grant. The name 
should be changed to reflect the new role--the Homeland Security Grant 
for Fire Departments. It is so much more important that we continue to 
build firefighting capability nationwide--that capability is also of 
great value to homeland security response--providing decontamination 
support, dust abatement and putting out fires

    6)   H. R 3266, Sec 802 (h), relates to penalties for failure of a 
grant recipient that is a state or multi-state entity to provide the 
funds /resources to local governments/first responders within 45 days. 
Why do you believe waste fraud and abuse will increase under this 
section? What alternative would you propose to ensure timely 
disbursement?

    I worked for a while for an agency of the federal government. I 
have seen, and the members of the committee certainly have heard horror 
stories about spending ``end of year funds.'' In order to meet the 
spending deadline, federal agencies, state agencies, and local agencies 
have done some pretty strange and wasteful things. While it's important 
to press for urgency and to streamline processes, providing a fiscal 
penalty probably will likely tend to push some states into obligating 
funds in a manner that is careless, poorly thought out, and 
occasionally intended to obscure the true nature of the obligation. We 
already are seeing some news coverage suggesting inappropriate 
purchases in the SHSGP.
    Rather than a financial penalty, I would suggest a requirement that 
the Secretary communicate any failure to commit funds with in the 
required period directly to the affected state's Governor as well as to 
the Congress. I know my Governor well enough to know that I will 
improve my efforts or someone else will have an opportunity to meet 
future deadlines. I also know the Governor well enough that he will 
understand when there is a problem with a local jurisdiction that must 
be resolved before a sub-grant or other obligation is made.
    The other problem with a financial penalty is that it is likely to 
harm the responder, not necessarily motivate the administrator. The 
value in having the Secretary communicate directly with the Governor is 
that more focused effort will be brought to bear upon fulfilling the 
purposes of the grant.

    7)   What do you mean when you say that the current management of 
threat, vulnerability and risk are working well because it is used 
dynamically? How do any of these proposed bills impact these dynamic 
qualities?

    Several bills seem to over emphasize the element of threat in 
relationship to risk and vulnerability. Threat varies daily either 
because those who would do us harm change tactics or because we 
perceive the threat differently. Greater emphasis given threat 
legislatively reduces the executive branch's ability to adapt to meet 
changes in targeting intelligence or developments in tactics.
    I certainly would never wish to offend the members of congress, but 
I have noticed that, occasionally, Congress finds it difficult to act 
with rapidity. Vulnerability and risk tend to be a little more stable. 
I think the current mix of emphasis is serving us well allow 
adaptability and flexibility nationwide. I would again suggest that 
enhancements are great ways to cope with changing conditions in threat. 
The base relationship really ought to reflect a long-term balance.
    It is also worth noting that jurisdictions are perfectly willing to 
find ways to enhance their ``threat rating'' when they understand that 
it may mean more money. I have had some difficult moments convincing 
some communities that their appraisal of threat just wasn't realistic. 
The more we emphasize threat, the more likely we are to see inflated 
threat ratings meant to capture more funding.
    I believe that our national threat analysis continues to 
overemphasize more traditional targets consistent with the traditional 
battlefield. While we certainly must plan to protect critical 
infrastructure, we may be focusing too tightly upon those targets. We 
call them ``terrorists'' because they wish to create terror. We see, in 
Israel for example, attacks upon places and facilities that are 
certainly not ``critical infrastructure.'' Instead, there are attacks 
that are designed to promote terror by convincing citizens that their 
government cannot protect them in any location.
    Because we can cope more easily with threat analysis that focuses 
upon ``critical infrastructure,'' I believe we are relying too heavily 
upon that analysis. We are, in a sense, ``fighting the last war'' 
instead of the present one. The attacks of September 11, 2001 should 
not create an expectation that the next attack will be similar. I would 
not rule out a similar attack certainly, but it is foolish to overly 
focus on what has occurred as the principal predictive element of what 
will occur. I think we're close to doing that.
    There is currently a reasonable, even allocation of resources among 
jurisdictions that includes reasonable emphasis upon threat to well-
defined and clearly definable targets as well as room for funding to 
accommodate protecting targets of opportunity and such non-traditional 
targets as we have seen in other areas of the world. I am as concerned 
about a personal suicide attack at a middle class restaurant in a small 
city in America's Heartland as I am about an attack upon a substantial 
piece of infrastructure. Terrorists are predators. Predators cannot use 
more energy in obtaining the ``kill'' than they will derive from it.
    I would add that I am very suspicious of experts who believe they 
can pin down terrorist threat analysis. There is not a good track 
record for such experts--that's how we got here.
    I am fond of experts who couch their analysis in terms that suggest 
that their analysis has highly transitory components and suggests that 
their readers constantly obtain and evaluate other analyses.


</pre></body></html>
